<html>
<title> - COLLABORATIVE ECOLOGICAL RESTORATION</title>
<body><pre>[Senate Hearing 110-453]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-453
 
                  COLLABORATIVE ECOLOGICAL RESTORATION 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   TO

 CONSIDER S. 2593, A BILL TO ESTABLISH A PROGRAM AT THE FOREST SERVICE 
     AND THE DEPARTMENT OF THE INTERIOR TO CARRY OUT COLLABORATIVE 
  ECOLOGICAL RESTORATION TREATMENTS FOR PRIORITY FOREST LANDSCAPES ON 
                  PUBLIC LAND, AND FOR OTHER PURPOSES

                               __________

                             APRIL 1, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

43-818 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 









































               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel





































                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Bisson, Henri, Deputy Director, Bureau of Land Management, 
  Department of the Interior.....................................     8
Craig, Hon. Larry E., U.S. Senator From Idaho....................    43
Domenici, Hon. Pete V., U.S. Senator From New Mexico.............    16
Gross, Howard, Executive Director, Forest Guild, Santa Fe, NM....    36
Kimbell, Gail, Chief, Forest Service, Department of Agriculture..     2
Lawrence, Nathaniel, Senior Attorney and Director of Forest 
  Project, Natural Resources Defense Council, Olympia, WA........    27
Olson, Keith, Montana Logging Association; Riley, Jim, 
  Intermountain Forest Association; Simpson, Ellen, Montana Wood 
  Products Association; Keough, Shawn, Associated Logging 
  Contractors of Idaho...........................................    50
Salazar, Hon. Ken, U.S. Senator From Colorado....................    18
Simon, Scott, Arkansas State Director, The Nature Conservancy, 
  Little Rock, AR................................................    19
Tester, Hon. Jon, U.S. Senator From Montana......................     2
West, Christopher I., Vice President, American Forest Resource 
  Council, Portland, OR..........................................    24

                                APPENDIX

Responses to additional questions................................    53


                  COLLABORATIVE ECOLOGICAL RESTORATION

                              ----------                              


                         TUESDAY, APRIL 1, 2008

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, at 2:30 p.m. in room SD-366, Senate 
Dirksen Office Building, Hon. Jeff Bingaman, chairman, 
presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK. Why don't we go ahead and get started? 
This is, as I've explained to Chief Kimbell and also Deputy 
Director Bisson, we're a little fouled up right here because 
the Senate is about to start a vote. I think I'll give my very 
short statement and then put the committee back into recess for 
a few moments while Senator Tester is on his way. He's over 
there on the Floor ready to vote and then will come here to 
help preside and I'll be back after the vote as well.
    So, the purpose of today's hearing is to consider S. 2593, 
the Forest Landscape Restoration Act. This bill establishes a 
program to select and to fund landscape scale forest 
restoration projects through a process that encourages 
collaboration, relies on the best available science, 
facilitates local economic development and leverages local 
funds with national and with private funding.
    As wildfire activity and suppression costs have grown 
dramatically, and as the effects of global warming are posing 
an ever-greater threat to forest and watershed health, and as 
the economy struggles, the time is right for this approach.
    The positive response that the bill has received from 
communities around the country, I believe, speaks to the 
importance of these issues and the strength of this approach.
    As I indicated, we are just now beginning a vote. So, I 
will have to excuse myself for a few minutes.
    I'd like to thank all the witnesses for coming and for 
putting together very thoughtful testimony. I'd like to offer a 
special welcome to Howard Gross of the Forest Guild in my home 
state. Where's Howard? I know he's here somewhere. There he is.
    We have worked with agencies involved, with many others, in 
putting this proposal together. We certainly will carefully 
consider today's testimony and other feedback that we receive 
as we move forward, and as I indicated, I think the best course 
now would be to put us back into recess until we get a few more 
senators here who can hear your testimony and that'll be 
quickly, and I will return quickly myself.
    So, we'll go back into recess. Thank you.
    [Recess.]

          STATEMENT OF HON. JON TESTER, U.S. SENATOR 
                          FROM MONTANA

    Senator Tester. Call this committee meeting back to order, 
and I want to thank Senator Bingaman for his opening statement 
and the opportunity to address this issue which is critically 
important, I think, to the whole country, particularly to the 
West.
    When we talk about forest restoration, it is an issue that 
is becoming more and more apparent in the West because of the 
fires, and their intensity, the bark beetles, and disease, 
millions of acres of our land is changing. I attribute it 
mostly to climate change, and to be honest, in the past we may 
have made some mistakes as we managed the forests, but we have 
the opportunity to start correcting those mistakes and really 
develop restoration projects that would provide the kind of 
forest health that we need well into the future and for future 
generations.
    So, it's a big issue. I had the opportunity last weekend to 
deal with a different kind of restoration project in Missoula, 
Montana, with the removal of the Milltown Dam, but it's all 
kind of connected. Water and forests and wildlife and good 
fishing and clean water for drinking.
    So, with that, we will start with the statements. Senator 
Bingaman, has either one given statements yet?
    The Chairman. They are waiting patiently.
    Senator Tester. Chief Kimbell.

STATEMENT OF GAIL KIMBELL, CHIEF, FOREST SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Ms. Kimbell. Thank you, Senator Tester. I'd like to thank 
the committee for this opportunity to provide this, my agency's 
view on Senate Bill 2593 today and to congratulate the chairman 
and the ranking member and other co-sponsors on your efforts to 
develop this bill.
    We appreciate that you reached out to talk with us and with 
many others as you pulled together the concepts of the bill and 
for the focus you place on treating the land and restoring 
priority forest landscapes.
    We could not agree more that it is an important time for 
action to restore the health of the Nation's forests. We 
believe that sensible forest management approaches, such as 
hazardous fuel treatment and forest thinning, can improve the 
health of landscapes and watersheds, reduce risks from 
catastrophic fire, insect and disease infestations, and can 
increase the ability of forests to adapt to the ecological 
shifts associated with climate change.
    Mr. Chairman, in short, we support the intent and concepts 
that you have assembled in this bill. We fully agree with its 
emphasis to work on the landscape scale, to integrate the best 
available science, and to implement proposals through a 
collaborative process and to monitor for performance.
    Although the Forest Service has been carrying out 
restoration work across landscapes under current authorities, 
this bill would enhance our current efforts by helping 
prioritize landscape level restoration work.
    In my testimony, my written testimony, I offer specific 
examples of collaborative restoration efforts, such as the 
White Mountain Stewardship Project on the Apache-Sitgreaves 
National Forest in Arizona, the 16 Springs Stewardship Project 
between the Lincoln National Forest and the Mescalero Apache 
Tribe in New Mexico, as well as work in Southern Oregon, the 
front range of Colorado, and in South Carolina. There are many, 
many others, including in Montana.
    I also offer some background on our current efforts in 
developing an agency forest restoration framework and policy 
and our Open Space strategy to work with partners to conserve 
open space.
    In addition, we outline the legislative proposal that was 
offered within the president's Fiscal Year 2009 budget proposal 
for an ecosystem services pilot. It would expand our ability to 
bring new partners together with the Forest Service on 
landscape scale projects that restore forests through market-
oriented approaches to stewardship of national forests.
    Both the president's proposal and Senate Bill 2593 depend 
on a collaborative approach that builds commitment to 
partnership and ownership of the results. Each would help 
different groups find their common interests and leverage 
resources to get work done.
    On the other hand, we have concerns with the funding 
mechanism in the bill and because the amounts appropriated to 
the fund may result in the decrease of amounts for other high-
priority work, we have a number of specific comments on 
technical aspects of the bill and those can be found in my 
written testimony and we'd be happy to work with you.
    Mr. Chairman, the Forest Service is committed to working 
with Congress and various stakeholders to protect the 
communities and people and to work collaboratively to restore 
healthy ecological conditions on lands of all ownerships that 
have undergone so many changes.
    We believe that the actions we are currently taking will be 
enhanced by various provisions of this bill. This bill will 
provide the Forest Service some important tools we need to do 
work to restore the resilience and vitality of our Nation's 
forests.
    We recognize and appreciate the time spent by the committee 
to develop a bipartisan constructive approach to carrying out 
collaborative ecosystem restoration a priority for forest 
landscapes. We look forward to the opportunity to work with the 
committee to explore the establishment of an ecosystem services 
authority and to make technical amendments to clarify and 
strengthen the bill.
    I'll be glad to answer any questions you may have.
    [The prepared statement of Ms. Kimbell follows:]

      Prepared Statement of Gail Kimbell, Chief, Forest Service, 
                       Department of Agriculture
    Thank you for the opportunity today to provide the Forest Service's 
view on S. 2593, a bill that would provide for the establishment of a 
program to carry out collaborative ecological restoration treatments on 
priority forest landscapes. We support the intent of the bill to work 
on a landscape scale, to integrate the best available science, and to 
implement proposals through a collaborative process. As reflected by 
the inclusion of an ecosystems demonstration legislative proposal 
within the President's FY 2009 Budget and much of our current work, we 
share this goal. The Administration's ecosystem demonstration proposal 
would expand our ability to bring new partners together with the Forest 
Service on landscape-scale projects that restore forests through 
market-oriented approaches to stewardship of national forests.
    Both the President's proposal and S. 2593 reflect a collaborative 
approach that builds commitment to partnership and ownership of the 
results. Each would help different groups find their common interests 
and leverages resources to get work done. Although the Forest Service 
has been carrying out restoration work across landscapes under current 
authorities, S. 2593 would enhance our current efforts by helping 
prioritize landscape-level restoration work. In my testimony, I will 
give some background on our current efforts in landscape-level work and 
make some general comments on the bill.
    We believe there is a need for action to restore the health of many 
of the Nation's forests and rangelands. On the one hand, some of our 
forests and grasslands have adapted to natural disturbance regimes. On 
the other hand, many areas across the Nation are experiencing extended 
droughts, reduced snow packs, damaging storm events, and other 
environmental stressors. The presence of large amounts of hazardous 
forest and rangeland fuels poses a risk of catastrophic wildfire that 
threatens other public and private land and natural resources and 
communities. Millions of acres of forest and rangeland ecosystems are 
under attack from native insects, such as bark beetles as well as non-
native invasive species. For example between 2000-2004, trees were 
killed on approximately 27.1 million acres in the Western States from a 
combination of factors. These diverse threats affect aquatic and 
terrestrial ecosystems in virtually every region of the country.
                            current efforts
    We believe that hazardous fuels treatment and other forest 
management approaches, such as forest thinning projects can help 
mitigate these risks, restore healthy forest conditions, and increase 
the ability of our Nation's forests and grasslands to adapt to 
ecological shifts associated with climate change. The Forest Service 
has taken several actions to accomplish these objectives, for example:

    Forest Restoration Framework and Policy.--The Forest Service has 
completed a strategic, science-based framework for restoring and 
maintaining forest and grassland ecological conditions titled the 
``Ecosystem Restoration Framework.'' The framework looks at the 
development of an integrated agency-wide forest restoration policy to 
promote ecosystem restoration and efforts to integrate this work across 
all functional areas of the agency. The framework also considers 
integration of ecosystem restoration into our national strategic, 
forest land and resource management plans, and project plans; and use 
of incentives to increase accomplishment of restoration objectives.
    The framework will address policy factors such as requirements to 
plan, implement, monitor, and evaluate ecological restoration 
activities in consideration of current and future desired conditions 
and the potential for future changes in environmental conditions, 
including climate change. Our policy will provide consistent guidance 
to all of our field units; communicate our intention to increase 
emphasis on operating at a landscape scale, and our expectation to 
accelerate collaborative restoration work. The policy is under 
development and is expected to be released within the near future.
    Stewardship Contracting as a Tool to Accomplish Restoration.--The 
Forest Service has been actively using stewardship contracts, part of 
the Healthy Forests Initiative, to advance hazardous fuels reduction 
and other forest restoration treatments in priority areas. Last year, 
we completed an assessment of our progress on implementing stewardship 
contracting, and we are working to expand our use of stewardship 
contracting. We believe that stewardship contracting is an effective 
tool to implement the landscape restoration proposals under this bill, 
and we think that the authority to enter into the contracts should be 
made permanent. Several projects stand out as examples of this tool's 
capability.

  <bullet> The White Mountain Stewardship Contract on the Apache-
        Sitgreaves National Forests in Springerville, Arizona is the 
        largest stewardship contract in the nation. This contract has a 
        10-year term to treat 15,000 acres per year for a total of 
        about 150,000 acres, and it is entering its fourth year. The 
        project was designed and is being carried out through a 
        collaboration of various state and local governments, 
        representatives of local forest products industry, and special 
        interest groups. The goals of this effort are to restore forest 
        health, reduce the risk of fire to communities, reduce the cost 
        of forest thinning, support local economies, and encourage new 
        wood product industries and uses for the thinned wood fiber. 
        Removal of saw timber is offsetting the cost of fuels 
        treatments and improvements to forest health. In addition, the 
        project will partially supply material to the Renegy Biomass 
        Plant (25 megawatt) in Snowflake, AZ.
  <bullet> In Alamogordo, New Mexico, the Lincoln National Forest and 
        the Mescalero Apache Tribe signed the 16 Springs Stewardship 
        Project under the authority of the Tribal Forest Protection Act 
        (TFPA, Public Law 108-248). This is the first stewardship 
        contract under the TFPA authority, which permits the Federal 
        government to enter into contracts and agreements with American 
        Indian Tribes for work on public lands bordering on or adjacent 
        to tribal lands. The 6-year contract involves 15,000 treatment 
        acres (half with commercial timber harvest and service work, 
        half with service work only). The service work primarily 
        consists of thinning and fuel treatments. The project is 
        designed to reduce the threat of wildfire and forest disease 
        spread from public lands to Tribal land. The project will 
        contribute to the central priority of restoration of fire-
        adapted ecosystems by reducing intensities of wildfires, 
        especially in Wildland-Urban Interface (WUI) as identified 
        under the Otero County Community Wildfire Protection Plan, 
        sanctioned by the Otero County Working Group. Furthermore, the 
        project will restore natural ecologic processes across a range 
        of forest types, provide forest products to the local 
        community, and enhance watershed conditions. The full 
        implementation of this contract will reduce the threat of 
        damaging wildfire to national forest system, private, and 
        tribal lands.
  <bullet> The Sustained Yield Restoration Stewardship Contract on the 
        Fremont-Winema National Forest in Lakeview, Oregon is a 
        contract with a 10-year term that we anticipate will treat 
        about 3,000 acres per year for a total of about 30,000 acres. 
        This project will reduce the risk of catastrophic fire and 
        restore watershed conditions. The goals of the project are to 
        sustain and restore a healthy and resilient forest ecosystem 
        that can accommodate human and natural disturbances, to sustain 
        and restore the capacity to absorb, store, and distribute 
        quality water, and to enhance opportunities for people to 
        realize spiritual, and recreational values on the forest. The 
        forest thinning treatments will yield sawlogs and biomass. The 
        biomass from this contract will provide a portion of the 
        material necessary to produce electric energy in the planned 
        $20-million Lakeview Biomass Plant. Once this plant is 
        operational, it is expected to annually produce about 13 
        megawatts of renewable energy. The project is an outgrowth of a 
        20-year Memorandum of Understanding signed by The Collins 
        Companies, Marubeni Sustainable Energy, Lake County Resources 
        Initiative, Oregon Department of Forestry, Lake County, Town of 
        Lakeview, City of Paisley, the BLM, and the Forest Service.
  <bullet> The Front Range Stewardship Contract is located on the Pike, 
        San Isabel, Arapaho, and Roosevelt National Forests in Colorado 
        and is a contract with a 10-year term that should treat about 
        4,000 acres per year for a total of about 40,000 acres. This 
        contract will involve the harvest of saw timber, treatment of 
        non-saw timber, biomass and slash and will create fuel 
        modification zones, fuelbreaks and fireline construction. The 
        project is designed to provide hazardous fuel reduction, forest 
        restoration, watershed enhancements, and related services. The 
        initiative is the outcome of the Front Range Roundtable, a 
        diverse group of stakeholders that has worked together since 
        2003 to develop a long-term vision and roadmap for achieving 
        comprehensive fire risk mitigation and forest health goals in 
        the ten counties comprising Colorado's Front Range. Through 
        intense ecological analyses, the Roundtable identified over 1.5 
        million acres along the Front Range in need of treatment to 
        reduce the risks of wildfire to communities and restore forests 
        to sound ecological health.
  <bullet> The Francis Marion Biomass Removal Stewardship Project on 
        the Francis Marion National Forest in Cordesville, South 
        Carolina offered two multi-year contracts to treat 
        approximately 2,000 acres per year for 5 years for a total of 
        10,000 acres. The primary objectives are to reduce fire hazard 
        and improve the forest health of dense stands of young loblolly 
        pine that established following Hurricane Hugo of 1989. The 
        contracts have stimulated a biomass chip market that 
        supplements the energy needs of local users for power 
        generation. The biomass chip value offsets the cost of pre-
        commercial thinning and has realized a major savings for the 
        Forest. These contracts have resulted in stand treatment costs 
        dropping by about 50 percent. The project sprung from a 
        collaboration of Santee Cooper Power and Electric Company, 
        South Carolina Forestry Commission, the Native Plant Society 
        and the South Carolina Coastal Conservation League, and several 
        local fire departments from communities adjoining the Forest.

    Many of the successes in our use of stewardship contracting are a 
direct result of the development and implementation of projects through 
collaborative partnerships with groups of diverse interests.

    Open Space Strategy.--In December of 2007, we announced the release 
of the ``Forest Service Open Space Strategy.'' Healthy ecosystems 
require maintenance as well as restoration. The loss of open space 
threatens the sustainability of the Nation's forests and grasslands. We 
lose approximately 6,000 acres of open space to development or land 
conversion each day across the United States. Land development is 
outpacing population growth, especially in rural areas where the trend 
is low density, dispersed development. The new Forest Service strategy 
provides a framework for working with others to conserve open space. It 
emphasizes collaborative approaches and partnerships to conserve 
ecologically and socially important forests, grasslands, ranches, and 
urban green spaces. These important lands provide vital ecosystem 
services and benefits for society, such as clean air, abundant water, 
connected fish and wildlife habitat, scenic beauty, outdoor recreation, 
and renewable resource products.
    Landscape Research.--Forest Service Research and Development 
provides long-term research, scientific knowledge, and tools that can 
be used to manage, restore, and conserve forests and rangelands. Forest 
Service research-based information relevant to this bill includes 
social science on collaborative planning that can help managers plan 
and carry out projects. Also, we are responsible for the Nation's 
Forest Census, known as the Forest Inventory and Analysis program. 
Research information is essential for understanding effects and 
management options for multiple stressors on ecosystems, such as 
drought, invasive species, fire, and air pollution and loss of open 
space. Other relevant research under way addresses how biomass 
utilization can help reduce fire impacts by reducing fuel loads. 
Additionally, there is ongoing research on costs of fire suppression 
and various fuels treatment that will be available for managers' use.
    ecosystem services: a more inclusive path forward to obtaining 
                            forest benefits
    Our country and those elsewhere are becoming increasingly aware of 
the importance of healthy forest ecosystems as ecological life-support 
systems. As you know, healthy forests provide strong economies and 
jobs, but also yield other goods and services that are vital to human 
health and livelihood--natural assets we call ecosystem services. Many 
of these goods and services are traditionally viewed as free benefits 
to society, or ``public goods''--wildlife habitat and diversity, 
watershed services, carbon storage, and scenic landscapes, for example. 
Recognizing forest ecosystems as natural assets with economic and 
social value can help promote conservation and more responsible 
decision-making.
    The President's FY 2009 Budget reflects a commitment to the 
expanded thinking about ecosystem services and recognition of other 
values that flow from healthy ecosystems. The Budget's proposal would 
bring new partners together with the Forest Service in a broad effort 
to advance stewardship on national forest lands in landscape-scale 
projects that address a full range of ecosystem services. Restoring 
ecosystem function through projects such as hazardous fuels reduction 
lets local interests invest in local projects to their own benefit with 
an assurance of the outcomes of that investment. Here are some of the 
highlights of this proposal:

  <bullet> The Forest Service would have the authority to implement up 
        to five Ecosystem Services Demonstration Projects with partners 
        to restore, enhance, or protect ecosystem functions on National 
        Forest System lands.
  <bullet> Outcomes from these projects will demonstrate the value of 
        clean water, carbon sequestration, and other critical services 
        that forests provide.
  <bullet> The ecosystem services provided by these projects will be 
        identified and measured through applied research, providing 
        valuable information to potential and emerging markets.
  <bullet> These projects will benefit the Forest Service and a 
        partner, defined as either a State, political subdivision of a 
        State, Indian tribe, or non-profit organization.
  <bullet> The projects will be expanded or accelerated using the funds 
        or services provided by a partner. Partnering entities could 
        carry out the project for the agency, provide funds for project 
        implementation up to a total of $10 million for all projects, 
        or provide a combination of funds and services.
  <bullet> Each project will be consistent with applicable land and 
        resource management plans and will comply with environmental 
        laws and regulations.
  <bullet> All ecosystem service benefits that accrue from these 
        projects will remain public.
         s. 2593, the forest landscape restoration act of 2008
    As does the ecosystem services proposal, S. 2593 would provide an 
additional tool for restoration consistent with current efforts. 
Projects would be created collaboratively and be part of a system that 
is evaluated on a landscape scale. In particular, this could be helpful 
for developing comprehensive management options that address issues 
related to climate change. I would like to now turn to the bill 
language.
    Section 3. Definitions.--We believe a definition of the term 
``restoration'' would be useful and should focus on restoration of 
healthy, sustainable, productive ecosystems for the future, as opposed 
to a return to a historic condition. We would like to work with the 
Committee on the definition.
    Section 4. Collaborative Forest Landscape Restoration Program.--
Section 4(a) would require the Secretary, in consultation with the 
Secretary of the Interior, to establish a program to select and fund 
ecological restoration treatments for priority forest landscapes. 
Section 4(b) sets out criteria that ecological restoration proposals 
under the program would be required to meet in order to be eligible for 
nomination. Requirements include a landscape restoration strategy that 
identifies and prioritizes treatments for a 10-year period across a 
landscape that is at least 50,000 acres, and is comprised of primarily 
forested National Forest System lands, but may also include other 
Federal, State, tribal, or private land. The restoration proposal would 
be required to be developed and implemented through a collaborative 
process. It must include an analysis that estimates the anticipated 
cost savings resulting from reduced wildfire management costs, and 
decreases the unit costs of implementing ecological restoration 
treatments over time. Additionally, the restoration proposal must 
include an estimate of the amount of new non-Federal investment that 
would be leveraged by Federal funding for restoration treatments, 
though non-Federal investments are not affirmatively required.
    We support the intent of the bill to work on a landscape scale, to 
integrate the best available science, and to implement proposals 
through a collaborative process. We already use criteria to support 
resource allocation in priority treatment areas regarding hazardous 
fuels. However, we suggest the Administration's ecosystem services 
proposal provides for a broader suite of actions beyond hazardous fuels 
alone, but are willing to work with the Committee on technical aspects 
of the eligibility criteria in the bill.
    Section 4(c) sets out a nomination process that would require 
submission of proposals to Regional Foresters for consideration. As 
part of the nomination process, Section 4(c)(3)(B) would require the 
Regional Forester to obtain concurrence from the Secretary of the 
Interior if actions under the jurisdiction of Interior are proposed.
    Section 4(d) would establish the process for selecting the 
collaborative forest landscape restoration proposals, which would 
require consultation with the Secretary of the Interior even for 
proposals that do not affect lands administered by the Interior 
Secretary. We would like to work with the Committee to modify this 
provision to require consultation only when lands administered by the 
Secretary of the Interior are part of the proposal.
    Section 4(f) would establish the Collaborative Forest Restoration 
Fund that could be used to pay up to 50 percent of the cost for 
carrying out proposals for ecological restoration treatments on 
National Forest System lands. The bill provides for authorization of up 
to 40 million dollars to the Fund for each fiscal year 2008 through 
2018. No more than 10 proposals could be funded during any given year, 
nor could more than 2 proposals be funded in any 1 region during a 
given year. Under section 4(f)(3) amounts appropriated from the general 
fund of the Treasury would be invested in interest bearing securities 
of the United States. The Administration objects to this provision. 
Amounts available for investment should be limited to funds collected 
from the public and not to funds appropriated from the General Fund 
which are not made subject to the appropriations process. We are also 
concerned that amounts appropriated to the Fund may result in a 
decrease of amounts appropriated for other high priority work and that 
there is no requirement for matching of non-Federal monies for projects 
that occur on non-Federal lands.
    Section 4(g) would establish program implementation and monitoring 
requirements. Section 4(g)(1) would require the creation of an 
implementation work plan that includes a description of the landscape 
restoration proposal, a business plan, and documentation of the non-
Federal investment in the priority landscape. Section 4(g)(4) would 
require the Secretary, in collaboration with the Secretary of the 
Interior, to use a multi-party monitoring, evaluation, and 
accountability process to access the ecological, social, and economic 
effects of each forest landscape restoration project. We are concerned 
that, in practice, the implementation of the bill may be 
administratively burdensome. Also, it is not clear when environmental 
analysis would be required. However, we would be happy to work with the 
Committee on clarifying language and to make any necessary 
administrative changes to the bill.
    We support landscape level planning, projects implemented 
cooperatively, and monitoring of performance. We recommend replacing 
``multi-party monitoring'' with science-based'' monitoring. This bill 
would provide the opportunity to use a network of landscape level 
projects to conduct coordinated research on key questions, such as 
effects of treatments on soil, water, fire hazard, wildlife, insect and 
disease, and economics. A well designed system of science-based 
monitoring at the appropriate scale, combined with a well-designed set 
of landscape treatments, would provide valuable information about the 
effects and effectiveness of large landscape treatments over time 
across a number of different types of ecosystems. The results of the 
monitoring would improve information for managers providing a network 
of standard measures of effectiveness and effects of landscape 
restoration.
                               conclusion
    Mr. Chairman, the Forest Service is committed to working with 
Congress and various stakeholders to protect communities and people and 
to work collaboratively to restore healthy ecological conditions on 
lands of all ownerships that have undergone many changes. We believe 
that the actions we are currently taking will be enhanced by various 
provisions of S. 2593, particularly if combined with the provisions of 
our ecosystem services demonstration project legislative proposal. 
Together they will provide the Forest Service some important tools we 
need to do work to restore our Nation's forests and grasslands to a 
condition so they can better resist disease, insects, and catastrophic 
fire.
    We recognize and appreciate the time spent by the Committee to 
develop a bipartisan constructive approach to carrying out 
collaborative ecosystem restoration of priority forest landscapes. We 
look forward to the opportunity to work with the Committee to explore 
the establishment of an ecosystem services authority and to make 
technical amendments to clarify and strengthen the bill. I will be glad 
to answer any questions you may have.

    Senator Tester. Thank you. I think we'll go on with you, 
Henri, if you want to make your statement and then we'll have 
questions at the end.

  STATEMENT OF HENRI BISSON, DEPUTY DIRECTOR, BUREAU OF LAND 
             MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Bisson. Mr. Chairman and Senator Tester, thank you for 
inviting me to testify regarding S. 2593, the Forest Landscape 
Restoration Act of 2008.
    The Department of the Interior strongly supports landscape 
scale restoration efforts and believes in the goals of 
landscape level approaches to land management. While we do have 
a few concerns with the legislation, we certainly appreciate 
the sponsor's intent in introducing S. 2593 to manage land 
health on a landscape scale.
    In our view, a true ecological approach to restoration 
begins with a collaborative evaluation of what is best for the 
health of the landscape and is followed by the engagement of 
the appropriate partners.
    I would like to take this opportunity to share our current 
efforts to improve ecological health of lands through a 
landscape scale collaborative approach.
    Initiated in fiscal year 2007, the Healthy Lands Initiative 
focuses on implementing the landscape scale habitat restoration 
and conservation projects across both public and private lands. 
A key component of this initiative is the partnership aspect 
and working closely with our neighbors to initiative and fund 
landscape scale restoration work that allows for continued 
healthy working landscapes.
    Building on recent success, the BLM proposes to expand HLI 
to California, in addition to the six initial project areas in 
New Mexico, Utah, Idaho, Wyoming, Oregon, Northern Nevada, and 
Western Colorado. The Western Colorado project is going to be 
expanded into the northwestern part of the State in 2009.
    My written testimony highlights several successful HLI and 
other large-scale landscape level projects.
    Since 2001, the department has worked aggressively to 
reduce the amount of hazardous fuels on Federal lands and to 
restore the health of our public forests, woodlands and 
rangelands, utilizing the authorities provided under the 
Healthy Forest Initiative and the Healthy Forest Restoration 
Act of 2003.
    Of the 258 million acres administered by the BLM, 69 
million acres are forests and woodlands located in the 11 
Western States and Alaska. These authorities have provided us 
with tools to ensure sound management practices and to 
implement hazardous fuels reduction projects and stewardship 
contracting.
    Overall, the DOI has applied nearly 8 million acres of 
hazardous fuels reduction treatments to forests, woodlands and 
rangelands, utilizing the tools of prescribed burns and 
chemical and mechanical fuels treatments, and has restored 1.4 
million acres through other landscape restoration activities.
    We support the intent of S. 2593. The legislation would 
provide the Secretary with an additional tool for restoration 
treatments for priority forest landscapes on public lands.
    We're concerned that the approach outlined in S. 2593 does 
not take into consideration the important connection between 
the health of forests and adjacent woodlands and rangelands 
and, furthermore, we suggest the DOI and Forest Service, where 
appropriate, be equal partners in the nomination and selection 
process in order to continue implementing priority projects 
across entire landscapes.
    We're committed to working with the committee and the 
legislation sponsor to ensure that any legislation effectively 
considers the health and restoration of both forests and 
rangelands. We will continue to work toward identifying 
priorities in an effort to achieve significant improvements in 
the health and productivity of the public forests, woodlands 
and rangelands at the landscape level.
    Thank you for the opportunity to testify, and I'd be happy 
to answer any questions, also.
    [The prepared statement of Mr. Bisson follows:]

  Prepared Statement of Henri Bisson, Deputy Director, Bureau of Land 
                 Management, Department of the Interior
    Thank you for the opportunity to testify for the Department of the 
Interior (DOI) on S. 2593, the Forest Landscape Restoration Act of 
2008, which establishes a collaborative and science-based forest 
landscape restoration program that would prioritize and fund forest-
based ecological restoration treatments. The DOI strongly supports 
landscape scale restoration efforts, and believes in the goals of 
landscape-level approaches to land management. While we do have 
concerns with the legislation, which are discussed below, we appreciate 
the sponsors' intent in introducing S. 2593 to manage land health on a 
landscape scale.
    In our view, a true ecological approach to restoration begins with 
a collaborative evaluation of what is best for the health of the 
landscape and is followed by the engagement of the appropriate 
partners. This approach is more effective in achieving the mutual goal 
of improving landscape health which, in turn, improves resiliency to 
the risk of wildfires and invasive species and preserves key wildlife 
habitat. It aggregates the investments of the partners and increases 
the cost-effectiveness of those investments. We would like to take this 
opportunity to share our current efforts to improve the ecological 
health of lands through a landscape-scale collaborative approach.
                               background
    Collaborative landscape-scale treatments continue to be the focus 
and priority in carrying out land management objectives on DOI-
administered lands. It is important for us to look at management from a 
landscape perspective beyond geopolitical boundaries and isolated 
ecosystems. Forests, woodlands and rangelands are a mosaic where the 
lands, resources and communities are all interconnected. From this 
perspective, we see the interdependence of resources and the need to 
develop interdisciplinary strategies for balanced multiple-use 
management across the entire landscape.
    Several current activities and proposed programs in the 
Administration's FY 2009 budget request already promote landscape-level 
approaches to restoring and maintaining land health that engage a 
number of Federal and non-Federal partners. Examples of key DOI 
programs include the Healthy Lands Initiative and the Wildland Fire 
Hazardous Fuels Reduction Program.
    Healthy Lands Initiative.--One challenge DOI faces is meeting land 
health goals that are required to integrate landscape-scale habitat 
restoration and resource management. Through the Healthy Lands 
Initiative (HLI), DOI is working collaboratively with our Federal and 
non-Federal partners to restore, enhance, and protect habitats through 
landscape-scale restoration initiatives and conservation planning, 
allowing us to continue to fulfill our multiple-use mandates. HLI 
considers the health of the land at a landscape scale instead of acre 
by acre.
    Initiated in Fiscal Year 2007, the Department's Healthy Lands 
Initiative focuses on implementing landscape-scale habitat restoration 
and conservation projects across both public and private lands. All of 
the projects implemented under this Initiative promote the maintenance 
or restoration of healthy native plant communities with the increased 
ability to survive or adapt to anticipated changes in the environment 
in the future. The Healthy Lands Initiative represents a concept for 
meeting emerging challenges in managing natural resources for continued 
multiple-use with flexible landscape-level approaches. Land restoration 
efforts are targeted toward priority landscapes to achieve various 
resource objectives, including resource protection, rehabilitation, and 
biological diversity. A key component of this initiative is the 
partnership aspect of HLI and working closely with our neighbors to 
initiate and fund landscape-scale restoration work that allows for 
continued healthy, working landscapes. The BLM leverages appropriated 
funding with matching funds provided by other Federal agencies, State, 
local and tribal governments, philanthropic organizations, advocacy 
groups, and industry partners.
    The 2009 Budget includes a total of $21.9 million within DOI to 
meet land health goals, a $14 million increase over the 2008 enacted 
level. BLM has the largest level of involvement in this initiative. In 
FY 2009, the BLM is requesting a $10.0 million increase over the FY 
2008 enacted level of funding of $4.9 million, for a total of $14.9 
million for HLI. An additional $8.2 million in BLM base funding also 
supports healthy lands. The BLM proposes to expand HLI to California as 
an addition to the six initial project areas located in New Mexico, 
Utah, South-central Idaho, Southwest Wyoming, Southeast Oregon-
Southwest Idaho-Northern Nevada, and Western Colorado. The Colorado 
project area will be expanded to the northwestern part of the State in 
2009.
    Our approach, working with our partners to maintain healthy 
landscapes, sustain wildlife and maintain continued access to the 
public lands for multiple uses, supports a landscape-level approach to 
natural resource management and restoration.
    We would like to highlight a few of the many successes and planned 
efforts that illustrate our ability to conserve the diversity and 
productivity of the landscape through the opportunities we have in HLI.

  <bullet> The Colorado Landscape Conservation Initiative encompasses 
        20.5 million acres of mixed ownership, including roughly 4 
        million acres managed by the BLM. This area provides quality 
        habitat for diverse wildlife populations, including seven of 
        the eight remaining populations of Gunnison sage-grouse, as 
        well as numerous special status species. The BLM, National Park 
        Service, U.S. Fish and Wildlife Service, Forest Service, 
        Natural Resources Conservation Service, Colorado Division of 
        Wildlife and private partners are working together to restore, 
        enhance, and protect habitats through conservation planning 
        efforts and partnerships. To enhance existing resources and 
        restore conditions, BLM Colorado's planned actions include 
        implementing habitat treatment projects, implementing effective 
        weed management efforts, expanding native-seed program, 
        pursuing conservation easements, and monitoring treatment 
        effectiveness. This year BLM is spending close to $400,000 to 
        treat 560 acres of wetlands, 12 miles of stream, 3,060 acres of 
        shrub, grass, woodland, and 10 riparian projects. In the Fiscal 
        Year 2009 President's Budget request, the BLM is requesting 
        almost $2 million to treat 1,380 acres of wetlands, 14 miles of 
        stream, 3,110 acres of forest, shrub, grass, woodland, 1,380 
        acres of weeds, and 27 riparian projects.
  <bullet> In New Mexico, the BLM is working closely with private, 
        state, and other Federal partners to restore desert grasslands 
        that are being supplanted with invasive mesquite. Removing the 
        mesquite from these landscapes reduces habitat fragmentation 
        for important species such as the Lesser Prairie Chicken and 
        Aplomado Falcon and improves the overall natural biodiversity 
        of desert grasslands. The BLM treated 40,000 acres in Fiscal 
        Year 2007, is planning to treat 48,730 acres in Fiscal Year 
        2008, and is requesting almost $3.5 million to treat 132,320 
        acres in Fiscal Year 2009. Additional non-BLM acreage is being 
        treated using other contributed funds.

    BLM also engages in comprehensive land health treatments through 
other base activities. For instance:

  <bullet> The BLM plans institutionalization of landscape level land 
        health treatments that characterize HLI. In Montana, the BLM is 
        addressing landscape-scale restoration on a 600,000 acre 
        watershed in the southwest part of the state. A recent forest 
        health assessment on a 32,000 acre area, known as the south 
        Tobacco Roots watershed, found that altered forest structure, 
        density and species composition in the mid-elevation forests, 
        of which both Forest Service and BLM are major land managers, 
        is putting these forests at high risk to insect epidemic and 
        catastrophic wildfire. The agencies have been working 
        collaboratively with private landowners, conservation groups, 
        and the Montana Department of Natural Resources and 
        Conservation to begin restoration across the watershed. The DOI 
        planned actions are 4,000 acres of forest restoration sales 
        followed by prescribed burn and 1,600 acres of juniper 
        treatment by prescribed burn. These treatments across the 
        entire watershed will restore the health, resiliency and 
        productivity of the entire watershed and continue to provide 
        high quality habitat, as well as a high quality place to live 
        and work for the people who live here.

    National Fire Plan/Healthy Forests Initiative/Healthy Forests 
Restoration Act.--Two major challenges facing DOI are addressing 
ecosystem health and the accumulation of flammable fuels on Federal 
lands, a major cause of fire risk. Multiple factors contribute to 
wildfire, which include weather, fuel type, terrain, location with 
respect to the wildland urban interface, and other highly valued 
landscapes, and managerial decisions made before and during fire 
incidents. As we have noted in past testimony before this Committee, we 
are seeing changing temperature and prolonged drought across many 
portions of the West and Southwest and an expansion of the wildland 
urban interface and an increase in the number of people living there. 
Fifty-seven million people now reside within 25 miles of BLM lands, and 
BLM lands host approximately 58 million recreation visits annually.
    As current trends indicate wildfire seasons may be lasting longer 
and the burned areas are becoming large. Continued accumulation of wood 
fiber, and substantial increases in highly flammable invasive species, 
are converging to increase the risk of catastrophic loss from wildland 
fires. The DOI, along with the Forest Service and other partners, is 
addressing cost containment measures to reduce suppression costs. We 
are also working hard in developing a cohesive approach among Federal 
partners, local governments, private organizations and citizens to 
reduce hazardous fuels and restore and maintain forest, woodland and 
rangeland health. This is being achieved through various initiatives 
such as the National Fire Plan (NFP), the Healthy Forests Initiative 
(HFI), and implementation of the Healthy Forests Restoration Act of 
2003 (HFRA). To date, we have made considerable progress.
    Since 2001, the DOI has worked aggressively to reduce the amount of 
hazardous fuels on Federal lands and restore the health of our public 
forests, woodlands and rangelands, utilizing the authorities provided 
under the HFI and the HFRA. Of the 258 million acres administered by 
the BLM, 69 million acres are forests and woodlands located in the 11 
western states. HFI and HFRA have provided the BLM with tools to ensure 
sound management practices and to implement hazardous fuels reduction 
projects and stewardship contracting.
    The BLM's hazardous fuels reduction and forests, woodlands and 
rangelands rehabilitation activities have also been guided by the 
National Fire Plan (NFP). The goals are to reduce fuels (combustible 
forest materials) in forests, woodlands, and rangelands at risk, 
rehabilitate and restore fire-damaged ecosystems, and work with local 
residents to reduce fire risk and improve fire protection. The NFP is 
being successfully implemented under the leadership of an interagency 
and intergovernmental group of Federal, state and local agencies 
working cooperatively to reduce wildfire risk and restore fire-adapted 
ecosystems. Investments made to restore land health today can have a 
profound impact on the resiliency of the treated acres to catastrophic 
and expensive wildfires in the future. Many treatments, such as 
thinning in forests and woodlands have an additional benefit of 
improving watershed conditions, wildlife habitat, and species 
diversity. Overall, the DOI has applied nearly 8 million acres of 
hazardous fuels reduction treatments to forests, woodlands, and 
rangelands on the public lands since 2001, using the tools of 
prescribed burns, and chemical and mechanical fuels treatments, as well 
as restored 1.4 million acres through other landscape restoration 
activities.
    The 2009 President's budget proposes $850 million to support fire 
preparedness, suppression, fuels reduction, and burned area 
rehabilitation needs for the DOI. This is a $42 million increase over 
the 2008 enacted level (excluding supplementals). The DOI continues to 
support the Healthy Forests Initiative. The budget proposes $202 
million for hazardous fuels reduction program. These funds will support 
more high priority fuels treatment projects. Putting forth the effort 
to cooperatively reduce wildfire risk and restore fire-adapted 
ecosystems now will lead to reduced fire impacts and costs in the 
future.
                                s. 2593
    The legislation calls for the Secretary of Agriculture, in 
consultation with the Secretary of the Interior, to establish a 
collaborative Forest Landscape Restoration Program to select and fund 
ecological restoration treatments for priority forest landscapes.
    Section 4(b) discusses eligibility criteria for collaborative 
forest landscape restoration proposal nominations. One criterion is for 
the proposals to be comprised primarily of forested National Forest 
System land, but may also include other Federal, State, tribal, or 
private land.
    Section 4(c) describes the nomination process, requiring the 
Regional Forester to nominate collaborative forest landscape 
restoration proposals for selection by the Secretary of Agriculture.
    Section 4(f) establishes a fund for the cost of carrying out 
ecological restoration treatments on National Forest System land, 
allowing the Secretary of Agriculture to use the fund to treat National 
Forest System lands for each collaborative forest landscape restoration 
proposal selected. It is unclear if the fund can be used to treat lands 
outside of the National Forest System that comprise a portion of a 
selected restoration project. The section also authorizes to be 
appropriated $40 million for each of fiscal years 2008-2018, to remain 
available until expended, and it allows interest to be credited to the 
fund.
    Section 4(g) states the Secretary of Agriculture shall, in 
collaboration with the Secretary of the Interior and interested 
stakeholders, use a multiparty monitoring, evaluation, and 
accountability process for not less than 15 years after project 
implementation commences. The bill also requires the Secretary of the 
Interior, as a collaborator with Secretary of Agriculture, to report on 
accomplishments for collaborative forest landscape projects carried out 
under the authorities of this legislation.
    As previously stated, we support landscape level approaches to land 
health. The legislation would provide the Secretary with an additional 
tool for restoration treatments for priority forest landscapes on 
public lands. As noted above, however, the Department, through the 
Wildland Fire Hazardous Fuels Reduction Program and the Healthy Lands 
Initiative, and the U.S. Forest Service already engage in activities 
proposed to be included in the bill. Moreover, the FY 2009 budget 
proposes Ecosystems Services Demonstration Projects in the Forest 
Service, described in greater detail in the Forest Service's testimony 
today.
    Of particular concern to the Administration is the creation of the 
Collaborative Forest Landscape Restoration Fund. The bill requires the 
Fund provide up to fifty percent of the cost of carrying out ecological 
restoration. It is not clear what mechanism would require Federal 
agencies to seek partner funding from non-Federal sources. Leveraging 
Federal funds with non-Federal funds is a vital element to successfully 
undertaking landscape level restoration projects as it facilitates 
collaboration and commitment by our non-Federal partners. Under section 
4(f)(3) amounts appropriated from the general fund of the Treasury 
would be invested in interest bearing securities of the United States. 
The Administration objects to this provision. Amounts available for 
investment should be limited to funds collected from the public and not 
to funds appropriated from the General Fund which are not made subject 
to the appropriations process. We also have concerns that 
implementation of the bill may be administratively burdensome.
    Finally, we are committed to working with the Committee and the 
legislation's sponsor to ensure that any legislation effectively 
considers the health and restoration of forests, woodlands, and 
rangelands.
                               conclusion
    Landscape-scale restoration continues to be a high priority for 
DOI. In collaboration with our partners, we have made considerable 
strides in restoring thousands of acres of Federal lands along with 
state and privately-owned lands under the jurisdiction of our partners. 
The DOI will continue to work towards achieving priorities in an effort 
to make significant improvements in the health and productivity of the 
public forests, woodlands and rangelands at the landscape level. We 
look forward to working with the Committee on S. 2593. Thank you for 
the opportunity to testify, I will be happy to answer any questions.

    Senator Tester. Thank you to both of you for your 
testimony.
    Mr. Chairman, do you want me to go first? I will do it 
then.
    Chief Kimbell, you discussed in your testimony several 
restoration projects that are in the works. In Montana, we have 
a few of those collaborative groups that have come up with some 
good restoration proposals.
    Everyone seems to like the proposals, but we are 
continually told, I am continually told, that they cannot be 
implemented without additional appropriations from Congress 
directly to the region or district level because there's not 
enough money due to fire fighting and other needed reasons.
    The question is do we need to have some sort of legislation 
in order for these projects to become a reality?
    Ms. Kimbell. I think this bill encourages landscape level 
collaboration in a way that's very complementary to the work 
we're doing.
    One of the larger barriers to implementing stewardship 
contracting right now is really around the cancellation 
liability and the fact that if--you know, we have under the 
Federal Acquisition Regulations, there's some limits on length 
of contracting and for a 10-year contract, the forest has to be 
able to set aside enough moneys at the very start to cover the 
liability in potential cancellation and that's moneys that are 
taken then out of a forest's budget or a region's budget and 
can't be spent on project work.
    This was an issue with the White River project or the White 
Mountains project. It's been an issue with any of the longer-
term timber--longer-term stewardship contracts that aren't in 
an area that has an existing infrastructure.
    Senator Tester. So, how often is that money used----
    Ms. Kimbell. That money----
    Senator Tester [continuing]. That's set aside?
    Ms. Kimbell. It's held to the side. It's not yet been used.
    Senator Tester. OK. So, do you anticipate it being used or 
can you give me some past experiences that would conclude that 
this money is used, all of it's used, half of it's used, none 
of it's used?
    Ms. Kimbell. If the money is not used to pay for 
cancellation, then the moneys are returned to the agency's 
workings.
    Senator Tester. All right. Can you give me sort of an idea 
of how often that happens--that it's returned?
    Ms. Kimbell. It's not yet happened because the White 
Mountain project is the first of these longer-term projects.
    Senator Tester. OK, OK. I've got you.
    Ms. Kimbell. It's still active.
    Senator Tester. So, this is a new procedure that you're 
using now, to set aside the money for the 10-year projects?
    Ms. Kimbell. In setting aside money in case those projects 
are canceled.
    Senator Tester. OK. You're well aware that Beaverhead Deer 
Lodge Partnership in Montana, you know, that group happens to 
be made up of timber folks, environmentalists. It's a group 
that, quite honestly, 10 years ago, they probably wouldn't have 
been talking. They probably would have been doing something 
else. So, we appreciate their efforts. They're trying to 
implement 70,000 acres of restoration over 10 years.
    Comparatively speaking, the Beaverhead Deer Lodge National 
Forestland, I believe, and correct me if I'm wrong, will treat 
about 2,500 acres per year, due mainly to budget constraints.
    On the same forest, the Forest Service has identified about 
nearly 300,000 acres that need to be treated or at least should 
be open to treatment. At the rate of 2,500 acres a year, that 
would take in excess of a hundred years to treat that land, 
significantly in excess of a hundred years and that's just one 
forest.
    So, will the Forest Service be able to fund and carry out 
projects like this realistically in the future?
    Ms. Kimbell. Each region is going through a prioritization 
of projects and I expect the Beaverhead Deer Lodge is competing 
with all the other forests in Montana and Northern Idaho for 
those moneys, those vegetation management moneys, at the 
regional level, because no, there's not enough money for all 
the forests to have projects of that size.
    Senator Tester. OK. Does Congress need to start 
appropriating money directly to the region or district level?
    Ms. Kimbell. I would hope not in that the prioritization--I 
mean, really, there are higher priorities in one place than in 
another, and each region goes through a very careful evaluation 
of that in allocating moneys at the regional level.
    Senator Tester. Do you know how many proposals there are 
out there right now similar to the 2,500 acre proposal at 
Beaverhead Deer Lodge?
    Ms. Kimbell. There are----
    Senator Tester. In that region?
    Ms. Kimbell. No, I don't have an exact number, but I do 
know of proposals where people have come in and proposed a 10-
year stewardship contract to a national forest where there 
isn't existing infrastructure and have suggested they would 
build infrastructure, but they need to have that 10-year 
commitment or more to be able to secure the loans that they 
would need in order to construct some kind of milling 
infrastructure and the forest has not been as responsive as 
some might like because of this need to have to set aside 
moneys for cancellation and the liability there.
    Senator Tester. OK. So, you have goals to take care of 
several different forests through your plans. The one that I 
talked of before was Beaverhead Deer Lodge. It's in direct 
competition with other forest restoration plans.
    I would assume that at some level they all have merit?
    Ms. Kimbell. Yes.
    Senator Tester. So is the discrepancy in the goals of 
taking care of these problems from a restoration standpoint 
simply money or is it something else?
    Ms. Kimbell. There are many challenges but certainly there 
are many more acres of restoration need than we have funding 
for.
    Senator Tester. OK. Thank you very much.
    Ms. Kimbell. Thank you, Senator.
    The Chairman. Thank you. Let me ask, so I understand 
better. You know, in a lot of our grant programs around here, 
we make a grant to an agency or to an organization to do 
something, and in making that grant, we ensure that they will 
have funding over a 3-year period, for example, or a 5-year 
period. I think that's fairly normal in some of the other 
areas, not in your agencies.
    But I guess what I'm trying to determine is when you talk 
about these long-term stewardship contracts, you're saying 
money needs to be set aside in case the contract's canceled to 
cover the liability, but there is no money set aside to ensure 
that the contract need not be canceled.
    Ms. Kimbell. I believe that's correct.
    The Chairman. So, if I were to get a long-term stewardship 
contract and appropriations are inadequate, then you would just 
not fund it next year and pay the liability for the 9 years 
that it's not in fact going to be carried out. Is that what I'm 
understanding?
    Ms. Kimbell. Once we sign a contract, you know, we are 
stating that we are committed to seeing through our part of 
this contract. So though there may not be a fund that sets 
aside 1 year's money to be able to--well, right now we don't 
have the mechanism, but to be able to use it in future years, 
once we sign a contract like that, we're saying this is a very 
high priority for us and we will----
    The Chairman. So, you don't have a practice of just 
canceling these. Once you enter into them, the practice is you 
stick with them?
    Ms. Kimbell. We do not have a practice of canceling these.
    The Chairman. But you set aside money, not in order that 
you can stick with them, but in the eventuality that at some 
point you can?
    Ms. Kimbell. We do set aside money as per the Federal 
Acquisition Regulations, but we don't set aside money for the 
continued operation of our part of that contract.
    The Chairman. OK. Let me ask about monitoring. You know, 
the whole idea behind this landscape scale restoration, it's 
somewhat experimental, and we have put in this proposed 
legislation significant requirements for monitoring in order to 
learn what's working and what isn't working. I mean that's the 
whole idea behind it.
    In the past, my understanding is that monitoring 
commitments on agency projects often have not been funded and 
that's an area that seems to always get sort of short shrift.
    What are your thoughts, either one of you, as to the extent 
of the monitoring that you're currently able to engage in on 
forest restoration projects and what's appropriate?
    Ms. Kimbell. As trained scientists, a lot of our people are 
very well trained and very attuned to collecting data. We like 
to collect data. We like to compare data. We like to measure 
data and yet the tough part of that is deciding which data is 
important and what data will we learn something from.
    We do have monitoring plans in the Forest Service. We have 
monitoring plans with our forest plans. Each project has some 
monitoring attached to it. In the past, we have made those 
monitoring plans far more complex than we were ever able to 
carry out. We've put a lot of effort into making those 
monitoring plans more reasonable and more meaningful, so that 
they actually tell us something after we collect the 
information.
    After some of the fires this last season, we actually did 
some on-the-ground monitoring and I have a report that I would 
like to submit for the record that's an Assessment of Fuel 
Treatment Effects on Fire Behavior, Suppression, Effectiveness 
and Structure Ignition on the Angora Fire* just outside of 
South Lake Tahoe where they actually did an analysis of the 
treatments that were done around South Lake Tahoe and looked at 
the fire behavior in those areas that were treated and this is 
only one of many examples of where we think collecting that 
kind of information to help inform landscape level treatments 
that we're planning now.
---------------------------------------------------------------------------
    * Report has been retained in committee files.
---------------------------------------------------------------------------
    Mr. Bisson. Senator, monitoring is a big part of making 
sure that we spend the money wisely and I think that 
frequently, you're correct, I think there is a lot of 
monitoring that would, should, could, ought to have happened 
that there hasn't been funding to do.
    I feel that if we make a commitment to doing restoration, 
if we are doing forest rehab, if we're doing these treatments, 
that there needs to be a commitment to do the monitoring as 
well, and we're currently working with the Geological Survey to 
look at developing a process we can commit to, particularly on 
the rehab emergency stabilization, in these projects that is 
something we know we can afford and will be committed to as we 
move into the future. GS is working with us on that right now.
    The Chairman. Thank you very much, Mr. Chairman.
    Senator Tester. Senator Domenici.
    Senator Domenici. Did you just come down after the vote, 
Senator Bingaman?
    The Chairman. Yes, I sure did.

   STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. I'm sorry I'm late. I did the same thing 
but got sidetracked. I voted before I came up here.
    I have an opening statement that I'm going to give and then 
maybe if we stay long enough, I have a couple of quick 
questions. If not, I'll submit them.
    There are two paths that we can follow when it comes to the 
ecological health of our Federal lands. The first path is one 
that we have been traveling down for the last decade or two. We 
know that we have a big problem but it's a thorny problem. So, 
we take only small steps to resolve the issues. I fear that 
path will result in millions of acres burned and billions of 
dollars expended with little to show for the effort.
    The other path is to get serious about undertaking the 
forest restoration work needed to truly change the risk of 
catastrophic fire across large landscapes. I believe that 
forest landscape restoration is an important step down the 
latter path, but let me suggest it is only a small step.
    I expect some witnesses will have concerns with the bill. I 
hope we will address as many of these concerns as possible. At 
the same time, I have concerns that we in Congress are not 
addressing the fundamental question of process paralysis as 
aggressively as need be.
    Process paralysis is what I said. When I said it, you 
coughed. That's just whatever you call it; that didn't cause 
you to cough? All right. But it came at a very good time.
    [Laughter.]
    Senator Domenici. I just wanted you to hear it. I think 
Congress needs to take steps to speed up the appeals process 
and to limit the time it takes to work through legislation.
    Those who don't want any change have an easy way to do it 
now; that is, an easy way to cause you to take a very long 
period of time before you can act and sometimes, maybe most of 
the time, that's the end of the process. It doesn't work.
    I fear that unless Congress finds the will to take on these 
two issues, much of the good I see in the Forest Landscape 
Restoration Act will be lost. I can understand why you and 
Senator Feinstein have some trepidation about taking these 
steps and I understand that we must incrementally address 
issues so that we have critical political support needed to 
prevail.
    It was Winston Churchill who once said, you can always 
count on Americans to do the right thing after they have tried 
everything else, and I think that's pretty apropos of what 
happens to you all, not necessarily of your own will. That's 
the way it happens.
    We try everything else and then when it won't work, we come 
back and try to do the right thing. Sometimes it takes too long 
to get there, sometimes we've lost the right way by the time 
we've got there or we have new people. In any event, it is a 
great way that is being used by those of who do not want to let 
us do what we must and I know there are many that resist fixing 
this process, the process of appeals and litigation.
    Sadly, these are the same ones that seem willing to 
sacrifice our forests to catastrophes. I do not think we should 
do that. I suspect that in the end, Congress would do the right 
thing. I just hope that it happens quickly enough to help 
rebalance the ecological integrity of our forests without 
having to withdraw the balance of our Federal treasury to fight 
decades of senseless and wasteful forest fires and wildfires.
    Senator Bingaman, I listened to Chief Kimbell at this 
morning's Interior Appropriations hearing and I have to tell 
you that I'm compelled to work to find a solution to the delays 
that appeals and litigation are causing and it may have to be 
that I will have to do that in this bill. I hope that I won't, 
but if I have to, I hope you will work with me, Mr. Chairman, 
in absentia, work with me to find those solutions.
    Thank you very much.
    Senator Tester. Senator Domenici, you can keep the floor if 
you've got questions.
    Senator Domenici. Are you finished?
    Senator Tester. I'm finished with mine, and I think Senator 
Bingaman is finished with his.
    Senator Domenici. I will submit to Gail Kimbell about four 
or five questions in writing, if you will submit them for me, 
and Deputy Director Henri Bisson, I'll submit two questions to 
you, and Chris West, he's not here, but----
    Senator Tester. Next panel.
    Senator Domenici. OK. There you are. I think I'm permitted 
to ask him. I'll submit some questions for him, and let's just 
go right through and submit them all. I submit these en bloc, 
Mr. Chairman, for them to answer in a timely manner and since 
this bill seems to have very broad support, I would think the 
right time means rather quickly.
    How long are you giving them to respond? Two weeks or what 
did we say?
    Senator Tester. Two weeks is just fine by me. Is that 
adequate for you? If it's a week, that's even better----
    Ms. Kimbell. We believe so.
    Senator Tester. Good. Thank you.
    Senator Domenici. OK. Thank you very much.
    Ms. Kimbell. Thank you, Senator.
    Senator Tester. Senator Salazar, we have just heard from 
Chief Kimbell and Henri Bisson of the BLM on the restoration 
bill, and if you have any questions or if you have a statement, 
you're certainly welcome to do either right now or both.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you, Senator Tester and Senator 
Domenici and Chairman Bingaman, the committee.
    I just want to make a quick statement. I have a formal 
statement for the record that I will submit for the record. I 
also just want to say that for Colorado, this is a very 
important piece of legislation and legislation that I fully 
support.
    We have 11 national forests and two national grasslands in 
Colorado, as you know, Chief Kimbell, managed by the Forest 
Service. We have a huge problem in my State, given that 20 
percent of our lands are owned by and managed by the Forest 
Service. There is a bark beetle problem which has infested our 
forests in a way that is unprecedented. I have sometimes 
referred to it as the Katrina of the West.
    When you think about 1.5 million acres of bark beetle 
infested acreage on national forests in Colorado, and when 
you--recognize that about 95 percent of all the mature lodge 
pole will die in Colorado in the next few years, we really are 
looking at the kind of devastation that really requires us to 
take proactive action.
    So, I'm pleased to be a supporter of Senator Bingaman and 
Senator Domenici's bill. I also am hopeful that as we address 
the issue of forest health, that legislation which the Colorado 
delegation had drafted to try to help us deal with the bark 
beetle problem, this legislation, components of which we might 
be able to include in this legislation as we move forward.
    Thank you, both, and thank Senator Tester and Senator 
Domenici.
    Senator Tester. Thank you, Senator Salazar. Just one real 
quick one that I had. Chief Kimbell, you've said that history 
will judge us, the leaders, by how well we respond to climate 
change.
    What role do you see landscape scale restoration responding 
to the climate change issue? I'll also that of you, too, Mr. 
Bisson.
    Ms. Kimbell. I think landscape scale looks at wildlands as 
absolutely critical to how we as a Nation address the 
challenges with climate change. The health, the vitality, the 
vigor of our forests dictates how much carbon it sequesters, it 
dictates how much carbon it processes, it helps it filter 
water, all the different processes, the natural processes that 
we've come to take for granted from forestlands, from 
wildlands, across the country, really depend on the health and 
vigor of those lands.
    So, I think a landscape look to be able to address priority 
needs for active management on those landscapes is really 
critical and this bill does direct that kind of work and it's 
going to be very important to our address in this Nation to 
climate change.
    Senator Tester. OK. Mr. Bisson.
    Mr. Bisson. Senator, because of much of the land that we 
administer is rangeland, the same issues hold true on the 
rangeland ecosystem, particularly sagebrush. We think that 
cheat grass invasion restoration after fire are largely the two 
determinants about whether certain species get listed because 
of what's happening in the sagebrush ecosystem and some of that 
is tied to the changing climate and so we're very concerned 
about this issue as well.
    Senator Tester. OK. Thank you very much. I appreciate your 
testimony. Appreciate your time for being here today. Thank 
you.
    The next panel, we have up Scott Simon, Director of the 
Arkansas Chapter of Nature Conservancy, Chris West, Vice 
President of the American Forest Restoration Council, Nathaniel 
Lawrence, Senior Attorney and Director of the Forest Project, 
Natural Resources Defense Council, and, finally, Howard Gross, 
Director of the Forest Guild.
    You guys get situated and we'll hear your testimony. I want 
to thank you all for being here, to give us your input on S. 
2593, and I think we'll just go right down the line. We'll 
start with you, Mr. Simon, and go from there.
    Welcome to you all.

 STATEMENT OF SCOTT SIMON, ARKANSAS STATE DIRECTOR, THE NATURE 
                  CONSERVANCY, LITTLE ROCK, AR

    Mr. Simon. Thank you, Senator. Good afternoon, Mr. 
Chairman. Good afternoon, Senator Lincoln.
    My name is Scott Simon, and I'm the Director of the Nature 
Conservancy in Arkansas.
    Thank you very much for the opportunity to testify on this 
bill. Thank you especially to Senator Lincoln from all your 
friends in Arkansas for all the wonderful conservation projects 
you do there and when we have conservation challenges for 
bringing everybody together to come up with a workable 
solution. We really appreciate you. So thank you.
    The Nature Conservancy really appreciates the work of this 
committee on this bill and strongly supports it, and I'd like 
to share an Arkansas example which illustrates a successful 
restoration project and illustrates why we think this 
legislation will work.
    Our experience in Arkansas is similar to the rest of the 
country. After 70 years of fire suppression, our historically 
open woods became dense causing a significant increase in 
wildfires and also outbreaks of the sort of beetles that the 
previous panel discussed, leading to over a million acres of 
all of our oak trees dying, and it really alarmed the people of 
Arkansas, and fortunately Senator Lincoln came to the rescue 
and with Senator Crapo held hearings in the Senate Ag Committee 
and many people from Arkansas were galvanized by these hearings 
and they felt like they had to do something and so we formed a 
team called the Ecosystem Restoration Team, Federal agencies, 
State agencies, private organizations, this great group of 
people, with the goal of developing large landscape scale 
restoration projects on the ground, 50,000 acres and greater.
    What we did was two things. First, the team agreed on what 
we felt the woods should look like, and the second thing we did 
is tried to meet other partners who were doing this work on the 
ground and we picked one from the Ozark National Forest, the 
Bayou Ranger District, and some people that wanted to do this 
sort of work and we selected them not so much based on the 
place but more based on the people and who they were because 
they had significant experience, they had had successes on the 
ground, and they had a vision for how they were going to open 
up the woods into the future, and then we worked together on a 
very simple plan which they included us in that included on-
the-ground monitoring and then went to the Forest Service and 
asked them to focus and prioritize the resources to this 
project which they did, which we're very appreciative of.
    So, the staff on the ground got to work doing the 
prescribed burns, the mechanical treatments and since 2002, 
they have treated of this 60,000 acre project about 90 percent 
of the lands and the results from the monitoring are very 
clear. There's a significant decrease, open woods, significant 
decrease in the density of the woods. There's a significant 
decrease in the wildfire risk. There's a significant increase 
in the abracious layer and the diversity of the site and in 
general it's just a much healthier forest.
    Most importantly, this project was just the beginning and 
so now it consists of about a 110,000 acres that includes the 
Buffalo National River, State wildlife management areas, and 
numerous private landowners, and this project was really an 
inspiration. It's led to six other very large projects in 
Arkansas and many small ones that cover over a half a million 
acres, all of them with treatments on the ground, so that today 
we have nearly a 100,000 acres in the open desired condition.
    The team faced several challenges, three. First, we found 
that the agencies really had a very difficult time prioritizing 
the projects and providing enough resources to achieve 
restoration at a sufficient scale.
    Second, the project was set back several years by fire 
borrowing which brought everything to a halt as the Forest 
Service tried to fund the fire suppression costs, and finally, 
the cost of the mechanical treatments is very high because 
there's no market in Arkansas, Ozarks, for small diameter 
hardwood stems.
    So, in summary, our experience in Arkansas reflects that 
these unhealthy forests, it's not just a Western problem, it's 
really a national problem, and we feel that this bill would 
address many of the causes and the problems and would be a 
great opportunity to get more treatment on the ground.
    Thank you very much.
    [The prepared statement of Mr. Simon follows:]

Prepared Statement of Scott Simon, Arkansas State Director, The Nature 
                      Conservancy, Little Rock, AR
    The Nature Conservancy is an international, nonprofit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. Our on-the-ground conservation work is carried out in 
all 50 states and in more than 30 foreign countries and is supported by 
approximately one million individual members. The Nature Conservancy 
has protected more than 117 million acres of land and 5,000 miles of 
river around the world. Our work also includes more than 100 marine 
conservation projects in 21 countries and 22 U.S. states.
             need for the forest landscape restoration act
    Millions of acres of publicly-owned forests are in poor health, 
putting people and nature at risk. These forests protect our drinking 
water, help regulate our climate and shelter wildlife. But across the 
country, many of our national forests and other public lands are 
overgrown and choked with vegetation as a result of past land 
management practices and fire exclusion. Unnaturally dense forests are 
more vulnerable to severe wildfire and destructive pests such as bark 
beetles which threaten forests in many places throughout the nation. 
Climate change is an additional stress to unhealthy forests, with 
longer wildfire seasons and winters that are warm enough for pests such 
as bark beetles to keep reproducing.
    Many forests in the South and Western states depend on a certain 
amount of fire to maintain their health. However, fire exclusion and 
other factors have altered this natural balance and caused a build-up 
of trees and other vegetation that today are fueling unnaturally severe 
fires. The scale of this problem is illustrated by a recent study that 
showed that fire and ecological conditions across 80% of the 
continental U.S. have been moderately or highly altered.\1\ Seven of 
the worst ten fire seasons since the 1950's have occurred in just the 
last 11 years.\2\
---------------------------------------------------------------------------
    \1\ Blankenship, K., A. Shlisky, W. Fulks, E. Contreras, D. 
Johnson, J. Patton, J. Smith and R. Swaty. 2007. An Ecological 
Assessment of Fire and Biodiversity Conservation Across the Lower 48 
States of the U.S. Global Fire Initiative Technical Report 2007-1. The 
Nature Conservancy, Arlington, VA.
    \2\ www.nifc.gov
---------------------------------------------------------------------------
    Unnaturally severe fires put communities and livelihoods at risk 
and devastate forests. In 2002 the Rodeo-Chediski burned nearly half a 
million acres in Arizona and caused 30,000 people to be evacuated. Also 
that year, the Biscuit fire burned 499,570 acres in Oregon and the 
Hayman fire in Colorado burned 137,760 acres and 600 structures were 
lost. In 2007, the Georgia Bay complex burned 441,705 acres and 9 
homes.
    Fire suppression costs are sky-rocketing. The USDA Forest Service 
spent $1.5 billion on fire suppression in 2006. In fiscal year 2008 the 
Forest Service is spending 46% of its budget on wildfire suppression 
and other fire-related activities,\3\ compared to 13% in 1991. These 
trends threatened to transform the U.S. Forest Service into the U.S 
Fire Service. Expensive fires means agencies cannot fund their other 
programs.
---------------------------------------------------------------------------
    \3\ USDA Forest Service, Overview of FY 2008 President's Budget, 
Forest Service Budget Justification.
---------------------------------------------------------------------------
    Forest treatments provide the opportunity to reduce severe fire 
risk, restore forest health and stimulate local economic activities. 
For forests that are unnaturally dense, removing the build up of small 
trees, based on ecological principles, helps reduce the excess 
vegetation that fuels unnaturally severe fire and creates the spaces 
that certain tree species need to grow and thrive. The woody biomass 
removed by thinning can be used by small wood processing industries to 
develop a wide range of products from solid wood items like flooring 
and furniture to products from waste material like electricity and wood 
stove pellets. Developing new markets for the by-products of thinning 
provides an economic boost to communities in rural areas that have 
suffered in recent years due to the decline of wood-processing 
industries.
    Current treatments to thin trees and reduce fuels in publicly owned 
forests are not happening at a scale which will restore forest health. 
Over the past four years, federal land management agencies have treated 
on average three million acres annually, an amount that represents only 
two percent of the total lands that need to be treated to restore 
forest health. Most treatments have not been at a scale that will 
restore health to our public forestlands. Stewardship contracting is 
tool that was developed to advance forest restoration, yet after four 
years, the average area of land treated is only 750 acres for a 10-year 
stewardship contract. These small contracts are not sufficient to 
sustain the industries that process woody biomass. Only three 
restoration projects over 10,000 acres have been carried out using 
stewardship contracts. Under the current approach, few, if any, 
projects receive sufficient funding to stimulate economic development 
and create stable markets for the products of thinning treatments.
           strengths of the forest landscape restoration act
    The legislation will establish a Forest Landscape Restoration Fund 
of up to $40 million annually, available on a competitive basis, for up 
to 10 years of landscape-scale fuels treatments on National Forest and 
DOI agency lands. We believe that making funding available via a 
competitive process, to those projects that meet a set of national 
eligibility criteria, coupled with approval by the Secretaries of 
Agriculture and the Interior and advice from Science and Technical 
Advisory Groups, is an appropriate process and one that builds upon 
some of the most successful elements of the Collaborative Forest 
Restoration Program in New Mexico. We think it is especially important 
that eligible landscapes demonstrate a high level of match between the 
federal investment in fuels treatment and private investment in 
infrastructure and capacity building.
    The Nature Conservancy uses the phrase ``enabling conditions'' to 
describe how we choose among the many places we could invest. Our 
organization achieves success by working in places where biodiversity 
conservation matters, but we are also careful to pick places where all 
indications are that success can be achieved. We believe that the 
eligibility criteria in the Forest Landscape Restoration Act will serve 
as an effective screen for enabling conditions.
    In particular, we support the criteria in the legislation requiring 
that eligible landscapes must have:

          1. Science-based determination of forest health need.
          2. A collaborative process in place and the scale of 
        landscape to be restored is 50,000 acres or more.
          3. Wood-processing and restoration infrastructure is in place 
        or planned.
          4. Collaboratively developed ecological restoration plan is 
        substantially completed.
          5. Capacity to complete NEPA analysis is demonstrated for 
        some portions of the landscape.
          6. Potential for cost savings in treatments and fire 
        suppression.
          7. Evidence of significant non-federal investment in capacity 
        building, infrastructure or treatments.

    Some have asked where the funding for the Forest Landscape 
Restoration Fund will come from. The legislation appropriately targets 
$40 million of the Hazardous Fuel Reduction line item to these high 
priority landscapes. We believe this is a good investment. Furthermore, 
the amount of increases in the Senate Interior Appropriation bills for 
this line item over the past few years is roughly equal to the amount 
authorized for the Fund.
    We also believe that the Fund creates an incentive for land 
managers to develop strong projects that meet the eligibility criteria, 
even if only a few receive funding. This effect has been demonstrated 
in New Mexico, where after seven years the Collaborative Forest 
Restoration Program has stimulated many projects that meet the criteria 
even though only small number are funded each year.
      restoration experience in arkansas shows why flra is needed
    The experience in Arkansas with declining forest health is similar 
to other states. The story is familiar: seventy years of fire 
suppression resulted in a denser forest. In the Ozark Mountains, the 
increase was from an average of 52 trees per acre to 148 trees per 
acre, with many areas having 300-1,000 stems per acre. These forests 
became increasingly unhealthy as more trees compete for the same amount 
of nutrients and water. The effect was uncharacteristic wildfires and 
outbreaks of native insects and diseases that resulted in 1,000,000 
acres of dead oak trees.
    After a hearing held in 2002 by Senator Lincoln, to focus attention 
on these indicators of unhealthy forests, Arkansas Game and Fish 
Commission, The Nature Conservancy, US Forest Service, and a variety of 
agency partners and other stakeholders formed a team (the Oak Ecosystem 
Restoration Team) to collaborate on large-scale restoration projects. 
The team agreed on the desired ecological condition they wanted to 
achieve and used that as a foundation for their work together. The team 
came up with a simple but elegant implementation plan that included 
monitoring. Resources were purposefully concentrated initially on a 
large 60,000 acre demonstration area in the Ozark National Forest, 
rather than spread across the Bayou Ranger District's 280,000 acres.
    The team implemented the restoration plan and achieved the desired 
ecological condition on much of the landscape. Since 2001, ninety 
percent of the demonstration area has had a mechanical or prescribed 
burn treatment. More than a third of the acres have received multiple 
treatments, such as more than one burn or a combination of mechanical 
thinning and burning.
    The monitoring plan has been implemented, providing the team with 
data to show that the restoration treatments had the expected effects: 
increased plant diversity and forage production, lower intensity fires, 
fewer trees per acre, and a healthier forest. The monitoring program 
was seven percent of the total cost and worth the expense. The data, in 
combination with public outreach through pamphlets, presentations, 
field tours for policy makers and others, and information panels at 
demonstration sites, has helped convince the skeptics and build support 
for this large scale of restoration.
    Since the early success of the original restoration project, this 
project has grown to over 110,000 acres and now includes National Park 
Service, State Wildlife Management Areas, and private lands. The 
restoration treatments are implemented jointly. Most importantly, the 
demonstration landscape was used as an example for six additional 
restoration projects. A total of 600,000 acres of treatment are in 
progress in Arkansas and showing similar results, with today over 
100,000 acres in the desired open oak woodland condition.
    The team in Arkansas did face three major challenges in 
accomplishing this work. First, the agencies have a great deal of 
difficulty prioritizing projects and concentrating resources. Even 
though this landscape project was identified as a priority, the team 
struggled every year to keep the resources concentrated on the 
demonstration project. Second, the project was set back every year by 
``fire borrowing,'' when the Forest Service had to divert its project 
funding to cover the fire suppression costs. Each time these allocated 
funds are diverted, the work comes to a halt. The Nature Conservancy's 
crews try hard to keep the projects going anyway, adding resources and 
personnel to make sure the treatments continued. Finally, the cost of 
mechanical treatments is high, and there is no current or historical 
market in the Ozarks for small-diameter hardwood stems.
    The experience in Arkansas reflects the fact that unhealthy forests 
and altered fire regimes are not just a western problem. The solutions 
found in Arkansas are widely applicable to fire-dependent ecosystems 
across the nation. The three challenges in Arkansas are also broadly 
reflective of barriers faced everywhere that landscape-scale ecological 
restoration is attempted. The Forest Landscape Restoration Act will 
address the key needs of such projects.
                                summary
    The Nature Conservancy is strongly supportive of the four 
anticipated outcomes of this legislation:

          1) Create approximately 10 large-scale examples where 
        targeted investments in ecological restoration and prioritized 
        use of the Hazardous Fuel Reduction line item will help get 
        ahead of the problem of escalating fire suppression costs on 
        overgrown federal lands.
          2) Stimulate markets for small diameter wood and biomass by 
        creating conditions, in the selected landscapes, for stable 
        levels of restoration. Once these markets are established, the 
        anticipated outcome is reductions in the per-acre treatment 
        costs.
          3) Establish a positive incentive for federal land managers 
        to develop and implement collaborative, large-scale restoration 
        projects that are based on agreed-upon science, and provide 
        woody by-products to forest industries. That positive incentive 
        is access to consistent funding.
          4) Finally, the legislation will create a direct linkage 
        between federal investment in hazardous fuels reduction, 
        private investment in wood processing infrastructure, and 
        philanthropic investment in capacity building. This would 
        leverage all three sources of funding to address the need of 
        improving forest health.

    Thank you for the opportunity to present this testimony. I would be 
pleased to answer any questions you may have.

    Senator Lincoln [presiding]. Thank you, Scott. We 
appreciate it. I certainly appreciate your thoughtful and kind 
words, and one of the things I'm so proud of are the multiple 
emblems that were on that last poster which really does 
indicate team work, folks coming together and really working 
hard together for the good of everybody.
    So, we appreciate your leadership in helping to make that 
happen.
    Mr. West, thank you and welcome to the committee.

  STATEMENT OF CHRISTOPHER I. WEST, VICE PRESIDENT, AMERICAN 
             FOREST RESOURCE COUNCIL, PORTLAND, OR

    Mr. West. Thank you, Senator Lincoln. For the record, my 
name is Chris West. I'm Vice President of the American Forest 
Resource Council, a forest products trade organization that 
represents nearly 80 forest product manufacturers and 
landowners in the Western United States.
    My testimony today not only reflects the views of AFRC but 
those of the Associated Oregon Loggers, Douglas Timber 
Operators, and Washington Contract Loggers. Our collective 
members represent loggers, sawmills, co-gen facilities and 
forest landowners that are committed to the ecological and 
economic and social stability of our western forest 
communities.
    We appreciate the opportunity today to discuss our thoughts 
regarding the Forest Landscape Restoration Act.
    This committee and the Subcommittee on Public Lands and 
Forests has heard from a long list of distinguished forest 
ecologists, silviculturists, and land managers who have stated 
that we can and desperately need to get back to the business of 
managing our western forests.
    Current landscape conditions are a result of both manmade 
and natural factors, but rather than dwelling on the past, we 
believe we need to start restoring the land to conditions that 
are both sustainable and resilient not only to wildfires but 
also to climate change.
    This Act will help improve and enhance numerous forest 
values while also providing an opportunity of certainty and 
predictability that forest products and biomass energy 
businesses need.
    Today, we are still losing mills across the West and in 
many places are in danger of losing the last infrastructure. 
For example, one of my members has a mill located in Central 
Oregon and they've been shut down for weeks at a time due to 
the lack of logs and they sit in the middle of a Federal forest 
that is overstocked and in need of thinning.
    The company has vested millions of dollars into small log 
technology and can handle a log to five inches in diameter, but 
without a predictable and consistent flow of projects, they 
cannot afford to invest in state-of-the-art logging equipment, 
mill technology and biomass energy facilities, and this 
legislation will help provide some of that certainty that our 
industry's entrepreneurs can take to their bankers and 
investors.
    We support the goal of restoring priority forest landscapes 
through a collaborative and science-based approach. To 
accomplish these goals, we need to have that meaningful 
discussion, like Scott mentioned that they had at the local 
site-specific level, where environmental conditions and 
ecological opportunities can be fully vetted by the 
stakeholders and natural resource professionals.
    A one-size-fits-all approach from Washington, DC, won't 
result in quality work on the ground and we're thankful that 
this legislation avoids that temptation to legislate 
prescriptive solutions.
    We'd offer several suggestions for increasing the 
effectiveness of this, and the first one deals with the 
authority given to the Forest Service and BLM around 
stewardship contracting.
    Many of these projects will produce byproducts, saw logs, 
fenceposts, fuel wood, biomass that clearly have value but 
won't pay their way out of the woods. Stewardship contracting 
authority allows the Federal agencies to trade goods for 
services and thus reduce the cost of accomplishing the work. 
Unfortunately, this authority expires in 2013 and we would ask 
that under this bill it be extended.
    The second issue that needs to be addressed deals with the 
current Federal Acquisition Regulations and Chief Kimbell had a 
discussion with Senator Tester about this, and I think they 
fully discussed the issue, but there is a solution out there 
and Senator Kyle has proposed legislation, S. 2442, that 
addresses the situation and will fix it so that we don't have 
to set money upfront, aside to cover just in case the contracts 
get canceled, and so we'd ask that that language be included in 
the bill.
    Finally, since much of the restoration work done under this 
Act will result in low-value material that may only be suitable 
for biomass energy, we would ask that 2593 amend the definition 
of renewable biomass that is in the Renewable Fuels Standard of 
the Energy Bill that was passed in December.
    The Renewable Biomass language inserted in the Energy bill 
by the House of Representatives is a travesty. We have millions 
of acres of Federal forests that are in desperate need of 
restoration with the potentials of millions of tons of biomass, 
yet the current law would not allow this material to count 
toward a renewable fuel standard and without the credits 
associated with that standard, investors are going to be hard-
pressed to undertake any new ventures in woody biomass energy.
    That concludes my prepared remarks, and I'd be happy to 
answer any questions.
    Thank you.
    [The prepared statement of Mr. West follows:]

  Prepared Statement of Christopher I. West, Vice President, American 
                 Forest Resource Council, Portland, OR
    Good afternoon, Chairman Bingaman, Ranking Member Domenici and 
members of the Committee. For the record my name is Chris West. I am 
the Vice President of the American Forest Resource Council (AFRC), a 
forest products trade organization representing nearly eighty wood 
product manufacturers and forest landowners in the western United 
States based in Portland, Oregon. Growing up in communities across the 
West, I am a second generation forester and attended the University of 
California at Berkeley where I earned a Bachelors of Science in 
Forestry and a Masters of Forestry in Forest & Wildlife Management 
Planning. My testimony today not only reflects the views of AFRC's 
membership, but also those of the Associated Oregon Loggers, Douglas 
Timber Operators and Washington Contract Loggers Association. Our 
collective members represent loggers, wood product manufacturers, 
biomass energy producers and forest landowners that are committed to 
the ecological, economic and social sustainability of our nation's 
western forest communities. They also provide family-wage jobs that 
fuel rural economies. We appreciate the opportunity to discuss our 
thoughts regarding S.2593, the Forest Landscape Restoration Act.
    This Committee and the Subcommittee on Public Lands and Forests has 
heard from a long list of distinguished forest ecologists, 
silviculturalists and professional land managers who have stated that 
we can and desperately need to get back to managing our western 
forested landscapes. As a result, the Committee already knows the great 
need for large-scale landscape restoration across the West. Current 
landscape conditions are a result of a variety of man made and natural 
factors, but rather than focusing on these, we would like to 
concentrate on what must be done to restore these forests. Some may 
want to dwell on the past, but we strongly believe that for the sake of 
our forest ecosystems, key watersheds, critical wildlife habitats and 
rural communities, we need to start restoring the land to conditions 
that are sustainable and resilient to not only catastrophic wildfire, 
but also climate change. If we, as a society, choose to continue an 
endless debate--allowing the judicial system to obstruct important 
projects while these vital ecosystems are devastated by unnatural 
catastrophic wildfires and insect epidemics--shame on us.
    The Forest Landscape Restoration Act will help improve numerous 
forest values, but more importantly it will also provide the certainty 
and predictability of opportunities that forest products and biomass 
energy businesses need. Today, we are still losing mills across the 
West and in many places we're in grave danger of losing the last 
remaining infrastructure. The current poor housing market and the 
associated drop in lumber demand has resulted in a rash of sawmill 
curtailments and shutdowns, but over the last decade we've lost mills 
across the West, especially in the four corners states, simply due to a 
lack of supply. Moreover, many of these mills were the only 
infrastructure located in areas at high risk of catastrophic wildfire. 
One of our member's has a mill located in central Oregon, which has had 
to shut down for weeks at a time due to no log supply. This mill has 
invested millions of dollars in small-log technology and can take a log 
as small as five inches in diameter. It is nearly surrounded by 
federally owned, overstocked and unhealthy stands of trees at high risk 
of catastrophic wildfire and in desperate need of thinning. This is 
just one example of how we as an industry have adapted to changing 
times, utilizing the latest technology to maximize the consumer 
products that can be produced from smaller trees. But without a 
predictable and consistent flow of forest management projects, 
companies cannot afford to make investments in new state of the art 
logging equipment, small log milling technology or biomass energy 
facilities. S.2593 would help provide some of that certainty upon which 
industry entrepreneurs can take to their bankers and investors. This 
basic fact is incredibly important and often an overlooked reality in 
the discussions surrounding a forest restoration program. We must have 
large landscape scale projects to implement, not only to save our 
forests, watersheds and wildlife habitats, but to also save our rural 
communities and the infrastructure we desperately need to do this work.
    We support the stated purpose of S.2593, which is to encourage the 
restoration of priority forested landscapes through a collaborative and 
science based approach. To accomplish these goals, there must be 
meaningful discussions at the local, site specific level, where 
environmental conditions and ecological opportunities can be fully 
vetted among diverse stakeholders with natural resource professionals 
and research scientists' input. A one-size-fits-all approach from 
Washington DC will likely result in tying the hands of land managers 
and diminishing the quality of work on the ground, therefore we thank 
you for leaving these decisions to the people in the field and avoid 
legislating prescriptive solutions.
    The Forest Landscape Restoration Act builds on a solid foundation 
of earlier forest restoration legislation, specifically the Quincy 
Library Group Forest Recovery and Economic Stability Act (QLG) and the 
Healthy Forest Restoration Act (HFRA). QLG grew out of a local 
collaborative effort to treat the forest landscape over three national 
forests in an effort to reduce the size and intensity of catastrophic 
wildfires. HFRA was a bipartisan effort to treat 20 million acres of 
high risk forest ecosystems across the nation. Unfortunately, these two 
important legislative efforts have not resulted in the large landscape 
projects that our forests, watersheds, wildlife habitats and 
communities desperately need.
    We would like to offer several suggested improvements to S.2593 
with the goal of increasing its effectiveness of meeting the stated 
goals of restoring priority landscapes. First, a critical tool to 
accomplishing the restoration work envisioned by the bill is the 
Stewardship Contracting authority authorized by the Omnibus 
Appropriations Act of 2003. In so many site specific situations, the 
restoration work has bi-products, such as sawlogs, fence posts, 
firewood and biomass that clearly have value but will not pay their way 
out of the woods. The Stewardship Contracting authority allows the 
federal agency to trade ``goods'' for ``services'' and thus reduce the 
cost of accomplishing the vital restoration work. Unfortunately, the 
Forest Service and BLM's authority to use this important tool expires 
in 2013, therefore we request that this authority be extended under 
this Act.
    Second, under current Federal Acquisition Regulation requirements 
there exists a government liability problem associated with Stewardship 
Contracting that if not resolved will likely limit the ability of the 
Forest Landscape Restoration Act to fulfill its desired outcomes. 
Specifically, these regulations require appropriated funds be obligated 
up-front to cover the government's potential financial liability should 
a contract be canceled. Considering the Forest Service's current dismal 
budget situation, this funding should be used to plan and implement 
other stewardship projects rather than being set aside to comply with 
an antiquated federal regulation. The Department of Agriculture's 
Federal Acquisition Regulations must be amended to allow multiyear 
stewardship contracts to be satisfied at the time of cancellation by 
using appropriated funds. Senator Kyl has proposed legislation, S.2442, 
that addresses this situation and we would ask that this language be 
included in S.2593.
    Finally, since much of the restoration work done under this Act 
will yield low value material that may be only suitable for biomass 
energy production, we ask that S.2593 amend the definition of 
``renewable biomass'' in the Renewable Fuels Standard of the Energy 
Bill passed last December. The ``renewable biomass'' language inserted 
into the Energy Bill by the House of Representatives was completely 
nonsensical and illogical. AFRC and its members work in our federal 
forests, comply with the strictest environmental laws and regulations, 
and produce renewable and sustainable consumer products that Americans 
demand. We have millions of acres of our federal forests in desperate 
need of restoration, with the potential for millions of tons of 
biomass, yet current energy law would not allow this material to count 
towards the Renewable Fuels Standard. Without the credits associated 
with this standard, potential investors will be hard pressed to 
undertake new woody biomass alternative fuel ventures.
    In conclusion, we are thankful that S.2593 recognizes that each 
area has its own unique values and challenges and that land managers, 
stakeholders, scientists and community representatives are best suited 
to plan projects through a collaborative, science-based approach. This 
concludes my prepared remarks. I would be happy to answer any questions 
you might have. Thank you.

 STATEMENT OF NATHANIEL LAWRENCE, SENIOR ATTORNEY AND DIRECTOR 
OF FOREST PROJECT, NATURAL RESOURCES DEFENSE COUNCIL, OLYMPIA, 
                               WA

    Mr. Lawrence. Thank you, Senator Lincoln. I'd like to thank 
you and the chair and the committee for the opportunity to 
appear today to give the views of the Natural Resources Defense 
Council on S. 2593.
    You know, we certainly urge you to pursue this bill. We 
urge you to pursue the committee's commitment to restoration of 
national forests. We hope that in the course of doing that, you 
will consider some specific suggestions in my written testimony 
about ways to enhance the chances of the bill to achieve its 
very laudable goals.
    In short, the bill has many very positive features that I 
want to begin by flagging. It certainly shows a crucial 
understanding that forest restoration needs to be founded on 
and evaluated in light of the best available science that 
starts with the premise that decisions about how to use public 
funds on public lands are best made in a collaborative fashion 
and, where possible, done in a way that creates local jobs.
    It recognizes that forest restoration is a broad and 
multifaceted undertaking. It's guided by the need, a very 
pressing need ultimately to reduce the out-of-control costs of 
fire suppression in this country in the national forests. It 
calls for critical monitoring and follow-up evaluation of the 
projects, and very importantly, it preserves the set of 
baseline environmental protection laws that guarantee 
disclosure and accountability and public participation in 
public lands decisionmaking and provides a safety net of our 
natural resources.
    I want to focus my testimony today mostly on reasons why 
it's important to have some limits on restoration projects. 
Probably most importantly, thinning forests can actually 
increase subsequent fires rather than reducing them.
    A very vivid illustration of this was the site that 
President Bush chose in 2002 for his announcement of the 
Healthy Forests Initiative. He stood among a stand of small 
badly burned trees and called for thinning our forests. What 
escaped attention at the time was that the fire that came up to 
that site started in thinned forests down below, thinned stands 
down below, where it blew up and came up the hill and toasted 
all of the trees there.
    The reasons for this are multiple. Thinning forests creates 
fuels that fan wildfires. It opens up forests in a way that 
lets sun in and dries the forest interior which can cause 
hotter fires subsequently, and it increases wind speeds in 
forests which also dries things out, and can mean that 
wildfires move more rapidly.
    Now, this is certainly not to say that thinning can't 
succeed. However, it does mean that it's really still in its 
experimental phase. Recently, Forest Service researchers stated 
very aptly that information comparing fire behavior and fire 
facts on various treated versus untreated forest stands 
following wildfire remains largely anecdotal and in point of 
fact, I only know of two studies of commercial and non-
commercial thinning on national forests as actually done by 
logging crews in the field, studying how the thinned stands 
performed compared to neighboring similarly situated unthinned 
stands.
    One of those studies took a look at a half a dozen fires 
and found that the thinning had reduced subsequent fire 
intensity; the other study showed that in every case in the 
fires it looked at, the thinning was associated with increased 
intensity afterwards.
    So, it's an experiment and it needs to be treated as an 
experiment. What we do know from the science suggests a couple 
of sidebars that we hope the committee will keep in mind.
    First, the best results we've got for this kind of thinning 
is in Ponderosa pine, particularly in the Southwest. Second, 
the best results are associated with removal of small trees 
without new roads and accompanied by the use of prescribed fire 
afterwards to clean up, and finally, the thinning that is going 
to be most accessible in the long term, in our view, would be 
accompanied by vigorous efforts to make communities more fire-
wise, to make homesites and communities able to withstand fire 
and the reason for that is that even a very low-intensity fire 
can burn houses, as happened in the Los Alamos fire in Northern 
New Mexico in 2003, when the fire entered the town as a low-
intensity fire that left many ornamental shrubs and street 
trees in place but burnt many of the houses to the ground.
    Until those communities are fire safe, it's asking more 
than I think is reasonable of fire bosses in the field to let 
fires burn, to reintroduce fires to the system, when they have 
to be concerned that a fire that gets out of control is going 
to turn into a community disaster.
    We hope very much that the committee keeps these factors in 
mind as it moves S. 2593 through the legislative process, and 
we look forward to your deliberations.
    I'd be happy to take any questions.
    [The prepared statement of Mr. Lawrence follows:]

Prepared Statement of Nathaniel Lawrence, Senior Attorney and Director 
   of Forest Project, Natural Resources Defense Council, Olympia, WA
    Mr. Chairman and Members of the Committee: Thank you very much for 
your invitation to appear today and offer the views of the Natural 
Resources Defense Council (NRDC) on S. 2593, the Forest Landscape 
Restoration Act. NRDC and its 1.2 million members and activists have a 
deep and abiding interest in the welfare of public lands in general and 
the National Forest System in particular. The degradation of those 
lands, which this bill aims to redress, is something we have longed 
worked to reduce.
    We applaud your initiative, Mr. Chairman, and that of your bill's 
co-sponsors, in developing legislation to promote restoration projects 
for our national forests. The bill you have introduced is replete with 
positive features. The bill evinces an understanding that forest 
restoration needs to be founded on, and evaluated in light of, the best 
available scientific advice. It also starts from the premise that 
decisions about how to use public funds on public lands should be 
collaboratively developed and, where possible, create local jobs. It 
recognizes that forest restoration is a broad, multi-faceted 
undertaking. It looks, as it should, to ultimately reducing the out-of-
control costs of wildfire suppression. It appropriately calls for 
follow-up monitoring and evaluation. And critically, it preserves the 
set of baseline environmental protection laws that guarantee 
disclosure, accountability, and public participation in public lands 
decisionmaking and provide a safety net under resource values. A 
central feature of the bill is its authorization of a limited number of 
projects. I would like to focus my testimony today, first and foremost, 
on the reason why having limits on this kind of restoration project is, 
for now at least, essential.
    Members of this Committee are acutely aware that many of our 
national forestlands are significantly degraded. Despite substantial 
study and some demonstrable successes, however, we have only a limited 
understanding of how and where to try to remedy that degradation. As a 
result, in most regards, forest restoration remains a grand experiment. 
It is certainly one we need to undertake, but also one to approach with 
care and the knowledge that it can be done in ways that make matters 
worse, not better.
    In particular, we have very fragmentary data about the fire ecology 
effects of forest restoration. In 2003, a U.S. Forest Service research 
publication reported that ``the question of fuel treatment 
effectiveness has received surprisingly little scientific attention. 
Thus, neither existing theory nor available empirical evidence provides 
much clarity on the question of fuel treatments and the conditions that 
influence their effectiveness when tested by wildfire.''\1\ This was 
echoed two years later by fire ecologists who noted that ``replicated, 
empirical research on fuel reduction techniques are rare.''\2\ And 
again, in 2006, Forest Service researchers stated that ``information 
comparing fire behavior and fire effects on treated versus untreated 
forest stands following wildland fire remains largely anecdotal.''\3\
---------------------------------------------------------------------------
    \1\ Martinson, E. J. and P. N. Omi. 2003. Performance of Fuel 
Treatments Subjected to Wildfires, in Omi, P. N.; Joyce, L. A., 
technical editors. Fire, fuel treatments, and ecological restoration: 
Conference proceedings; 2002 16-18 April; Fort Collins, CO. Proceedings 
RMRS-P-29. Fort Collins, CO: U.S. Forest Service, Rocky Mountain 
Research Station. pp. 7-8. See also Carey, H. and M. Schumann. 2003. 
``Modifying Wildfire Behavior-The Effectiveness of Fuel Treatments.'' 
The Forest Trust. p. 16. Available at www.theforesttrust.org/images/
swcenter/pdf/WorkingPaper2.pdf. p. 15 (``The proposal that commercial 
logging can reduce the incidence of canopy fire appears completely 
untested in the scientific literature'').
    \2\ Stephens, S. L. and J. J. Moghaddas. 2005. Silvicultural and 
reserve impacts on potential fire behavior and forest conservation: 
Twenty-five years of experience from Sierra Nevada mixed conifer 
forests. Biological Conservation 125:369-379. p. 370.
    \3\ Cram, D.S., T.T. Baker, and J.C. Boren. 2006. Wildland Fire 
Effects in Silviculturally Treated vs. Untreated Stands of New Mexico 
and Arizona. Research Paper RMRS-RP-55. Fort Collins, CO. U.S. Forest 
Service, Rocky Mountain Research Station. p. 1.
---------------------------------------------------------------------------
    In the absence of good empirical data on which to rely, there is 
still, of course, a strong intuitive basis for thinning forests to 
restore manageable fire regimes. Removing flammable wood should, one 
naturally thinks, result in smaller fires. Our experience with 
fireplaces, wood stoves, and campfires supports this. And computer 
modeling of fuel loads and flame spread corroborates the idea as well.
    In practice however, the picture is much cloudier. In the first 
place, taking wood out of forests can actually promote hotter, faster 
burning fires. Aggressive thinning that removes larger trees and 
reduces canopy closure is a particular problem. It opens up forests to 
sunlight. That warms and dries the understory, making it more readily 
burnable. It also promotes rapid ingrowth of flammable young trees and 
other plants, including non-native species. And all substantial 
thinning, even just in the understory, increases wind speeds in the 
forest interior. That both dries out the vegetation and leads to faster 
spread of wildfire and greater fireline intensity.\4\
---------------------------------------------------------------------------
    \4\ Martinson and Omi, supra note 1. p. 7. U.S. Forest Service. 
2000a. Final Environmental Impact Statement for the Roadless Area 
Conservation Rule (``FEIS''), volume 1. Online at: http:/
www.roadless.fs.fed.us/documents/feis. p. 3-110. Collins, B.M. et al. 
2007. Spatial patterns of large natural fires in Sierra Nevada 
wilderness areas. Landscape Ecology 22:545-557. p. 554. Whitehead, R.J. 
et al. 2006. Effect of a Spaced Thinning in Mature Lodgepole Pine on 
Within-stand Microclimate and Fine Fuel Moisture Content, in Andrews, 
P. L. and B.W. Butler, comps., Fuels Management-How to Measure Success: 
Conference Proceedings. 28-30 March 2006; Portland, OR. Proceedings 
RMRS-P-41. Fort Collins, CO: U.S. Forest Service, Rocky Mountain 
Research Station. Online at http://www.fs.fed.us/rm/pubs/rmrs_p041/
rmrs_p041_523_536.pdf. p. 529. Keeley, J.E., D. Lubin, and C.J. 
Fotheringham. 2003. Fire and grazing impacts on plant diversity and 
alien plant invasions in the southern Sierra Nevada. Ecological 
applications 13:1355-1374. p. 1370. FEIS, supra this note, Fuel 
Management and Fire Suppression Specialist's Report. Online at: http://
www.roadless.fs.fed.us/documents/feis/specrep/xfire_spec_rpt.pdf. p. 21 
(``Fahnstock's (1968) study of precommercial thinning found that timber 
stands thinned to a 12 feet by 12 feet spacing commonly produced fuels 
that `rate high in rate of spread and resistance to control for at 
least 5 years after cutting, so that it would burn with relatively high 
intensity;''' ``When precommercial thinning was used in lodgepole pine 
stands, Alexander and Yancik (1977) reported that a fire's rate of 
spread increased 3.5 times and that the fire's intensity increased 3 
times''); id. at 23 (``Countryman (1955) found that `opening up' a 
forest through logging changed the `fire climate so that fires start 
more easily, spread faster, and burn hotter'').
---------------------------------------------------------------------------
    In the second place, it is a mistake to conceive of western 
national forests as all overgrown thickets in need of thinning to 
restore prior forest structure and fire regimes. It is, of course, 
relatively easy to find thick stands of trees where selective logging, 
grazing, and fire suppression have altered western forests. And in 
drier sites, particularly those naturally dominated by ponderosa pine, 
and particularly in the Southwest and the Eastside of Oregon and 
Washington, fire ecologists have concluded that these stands are now 
prone to fire intensity and severity that is abnormal and damaging to 
the ecosystem.\5\ Active restoration of these sites, if we can figure 
out how to do it successfully and without excessive collateral damage 
to the ecosystem, is desirable.
---------------------------------------------------------------------------
    \5\ Christensen, N, et al. 2002. Letter to President George W. 
Bush. p.1. Attached to this testimony as Exhibit 1.
---------------------------------------------------------------------------
    However, many other sites, particularly higher elevation and wetter 
forests, are adapted to intense, stand-replacing fires, and dense 
stands there represent healthy forests. For instance, ``high density in 
lodgepole pine and spruce-fir forests is not related to fire 
suppression; it is simply a natural ecological feature of these 
subalpine forests.''\6\ As a result, ``variation in climate rather than 
in fuels appears to exert the largest influence on the size, timing, 
and severity of fires in subalpine forests. . . . We conclude that 
large, infrequent stand-replacing fires are `business as usual' in this 
forest type.''\7\ Other forest types, like pinon-juniper, often 
considered to be normally sparse also occur in dense stands 
naturally.\8\
---------------------------------------------------------------------------
    \6\ Romme, W. et al. 2006. Recent Forest Insect Outbreaks and Fire 
Risk in Colorado Forests: A Brief Synthesis of Relevant Research. 
Colorado State University, Fort Collins, CO. Online at http://
www.cfri.colostate.edu/docs/cfri_insect.pdf.
    \7\ Schoennagel, T., T.T. Veblen, and W.H. Romme. 2004. The 
interaction of fire, fuels and climate across Rocky Mountain forests. 
BioScience 54: 661-676. p. 666.
    \8\ Romme, W., et al. 2003. Ancient Pinon-Juniper Forests of Mesa 
Verde and the West: A Cautionary Note for Forest Restoration Programs, 
in Omi, P. N.; Joyce, L. A., technical editors. Fire, fuel treatments, 
and ecological restoration: Conference proceedings; 2002 16-18 April; 
Fort Collins, CO. Proceedings RMRS-P-29. Fort Collins, CO: U.S. Forest 
Service, Rocky Mountain Research Station.
---------------------------------------------------------------------------
    In the mixed conifer systems found in much of the West, pre-
settlement forest structure is hard to reconstruct with confidence. 
However, current fire patterns seem to be largely similar to those that 
pre-dated European settlement and the active management associated with 
most forest health problems. Researchers in southern Oregon and 
northern California, for instance, determined that in that region 
``most [recent] large wildland fires have been dominated by low 
severity fire, with variable proportions of moderate and high severity. 
This is consistent with historical estimates inferred from stand age 
structure.''\9\ Notably, they found that ``closed-forest vegetation had 
significantly less high-severity fire than the burned landscape as a 
whole.''\10\ In the Sierra Nevada, scientists looking at recent fires 
allowed to burn in two mixed conifer wilderness areas concluded that 
there is little evidence that current fires burn differently from those 
of 100 to 300 years ago.\11\ Others, looking at the Rocky Mountain 
region, from Wyoming through Arizona and New Mexico, concluded that 
fire regimes in mixed conifer forests had likely only been 
significantly affected at lower elevations, on dry slopes, and adjacent 
to grasslands.\12\ Generally speaking, they concluded, ``occurrence of 
high-severity crown fires is not outside the historical range of 
variability'' in mixed-severity fire regimes of the region.\13\
---------------------------------------------------------------------------
    \9\ Odion, D.C., et al. 2004. Patterns of Fire Severity and Forest 
Conditions in the Western Klamath Mountains, California. Conservation 
Biology 18:927-936. p. 933.
    \10\ Ibid. p. 932.
    \11\ 11 Collins, B.M. and S. L. Stephens. 2007. Managing natural 
wildfires in Sierra Nevada wilderness areas. Frontiers in Ecology and 
the Environment 5:523-527. p. 526.
    \12\ Schoennagel, T., T.T. Veblen, and W.H. Romme, supra note 7. p. 
671.
    \13\ Ibid. p. 673.
---------------------------------------------------------------------------
    Even in ponderosa pine, often taken as the paradigm case of a 
forest type in need of restoration, creating open stands with low 
intensity fires would match our knowledge of prior conditions in only 
some places. ``Such historically sparse forests, subject to high-
frequency [low-intensity] fires, comprise much of the ponderosa pine 
forest in Arizona and New Mexico but only a small fraction of the 
ponderosa pine forest in the central and northern Rockies.''\14\ More 
specifically, ``less than 20% of the ponderosa pine zone in the 
northern Colorado Front Range appears to have been characterized by 
frequent, low-severity fires. Instead, most of the ponderosa pine zone 
was characterized by a variable-severity fire regime that included a 
significant component of high-severity fires.''\15\ A U.S. Forest 
Service publication reviewing ponderosa forests throughout the West 
found that ``In most parts of the western United States there is also 
insufficient evidence to support the idea that mixed-or high-severity 
fires were or were not absent or rare in the pre-EuroAmerican fire 
regime. Thus, programs to lower the risk of mixed-or high-severity 
fires in ponderosa pine forests . . . have insufficient scientific 
basis if the goal is restoration.''\16\ Similarly, Forest Service 
researchers looking at dry forests in eastern Oregon and Washington 
found that historically there had been ``mixed severity fire in all 
subregions and across the study area . . . Instead of strong dominance 
of low severity fires, we saw dominance of mixed fires of highly 
variable severity, representing a virtual continuum of mixed surface 
fire and stand replacement effects.''\17\
---------------------------------------------------------------------------
    \14\ Ibid. p. 669.
    \15\ Romme, W., et al. supra note 8. p. 6.
    \16\ Baker, W.L. and D.S. Ehle. 2003. Uncertainty in Fire History 
and Restoration of Ponderosa Pine Forests in the Western United States, 
in Omi, P. N.; Joyce, L. A., technical editors. Fire, fuel treatments, 
and ecological restoration: Conference proceedings; 2002 16-18 April; 
Fort Collins, CO. Proceedings RMRS-P-29. Fort Collins, CO: U.S. Forest 
Service, Rocky Mountain Research Station. p. 330.
    \17\ Hessburg, P.F., R.B. Salter, and K.M. James. 2005. Evidence 
for mixed severity fires in pre-management era dry forests of the 
inland Northwest, USA. Association for Fire Ecology Miscellaneous 
Publication No., 3, 89-104. p. 101.
---------------------------------------------------------------------------
    Beyond the potential of thinning to backfire, and the widespread 
occurrence of forests where fire does not appear to be significantly 
altered, a third set of factors will likely influence restoration 
success. Most of the impetus for landscape restoration currently 
focuses on forest structures and fire regimes. Members of this 
Committee are well aware that human management and utilization has left 
a broad legacy of other restoration needs as well. Accordingly, the 
Forest Landscape Restoration Act wisely looks beyond the narrow issue 
of forest structure and fire susceptibility, requiring that restoration 
proposals address other landscape features that may call for 
rehabilitation. S. 2593, sec. 4(b)(3). However, even if the only goal 
were to restore manageable fire, these additional restoration needs 
would have to be addressed too. This is because several other forms of 
landscape damage have important implications for how forests grow and 
burn.
    Roads, for instance, are associated with increased fire starts.\18\ 
The Forest Service has found that ``in areas already roaded, fire 
occurrence data for all causes, human and lightning, indicates that the 
number of large fires are dramatically higher than in inventoried 
roadless areas.''\19\ Grazing, too, can profoundly affect fire, because 
cows and sheep crop forest grasses that otherwise would shade out tree 
seedlings and carry low intensity, brush-clearing fires.\20\ Non-native 
plant species also alter fire regimes, interacting with them in ways 
that are both mutually reinforcing and complex.\21\
---------------------------------------------------------------------------
    \18\ Christensen, N., et al. supra note 5. p. 2.
    \19\  U.S. Forest Service (2000a), supra note 4. p. 3-115.
    \20\ Belsky, A.J. and D. Blumenthal. 1997. Effects of Livestock 
Grazing on stand Dynamics and Soils in Upland Forests of the Interior 
West. Conservation Biology 11:315-327. Hicke, J.A. et al. 2007. Spatial 
patterns of forest characteristics in the western United States derived 
from inventories. Ecological Applications 17:2387-2402. p. 2388. U.S. 
Forest Service. 2000b. Protecting People and Sustaining Resources in 
Fire-Adapted Ecosystems: A Cohesive Strategy. Online at: http://
www.fs.fed.us/publications/2000/cohesive_strategy10132000.pdf. p. 15.
    \21\ Zouhar, K. 2003. Bromus tectorum. In: Fire Effects Information 
System. U.S. Forest Service, Rocky Mountain Research Station, Fire 
Sciences Laboratory. Online at: http://www.fs.fed.us/database/feis/
plants/graminoid/brotec/all.html. Keeley, J.E., D. Lubin, and C.J. 
Fotheringham, supra note 4. p. 1370.
---------------------------------------------------------------------------
    Given these confounding factors, and the current use of thinning 
for fire risk reduction in many forest types, it is not surprising that 
the results are mixed at best. As noted above, systematically gathered 
and analyzed data are still scarce (though anecdotal success and 
failure stories are abundant). However, we are beginning to get 
relevant information from some careful and meaningful studies.
    In a few cases, review of thinned and similarly situated unthinned 
stands shows success at lowering fire damage. Martinson and Omi 
analyzed 6 small diameter, non-commercial and pre-commercial thins from 
Montana to California, and two prescribed burns. They found that all 
reduced fire severity relative to neighboring untreated stands.\22\ 
Treatments that removed the smallest trees appeared most effective 
among the thinning plots; however, lower residual stand density did not 
correlate with lower fire severity.\23\ At the Blacks Mountain 
Experimental Forest both pre-commercial and commercial thinning reduced 
fire effects, with the largest difference found where prescribed fire 
was also used; lower stand density was related to lower damage.\24\ No 
stands with only prescribed fire were analyzed for comparison, however. 
More recently, Forest Service researchers analyzed treatment 
performance in three large southwestern fires. They found that 
treatment reduced crown damage, particularly when accompanied by 
prescribed burning, though thinning did not always result in lower tree 
mortality.\25\
---------------------------------------------------------------------------
    \22\ Martinson and Omi, supra note 1. pp. 9-10.
    \23\ Ibid, pp. 10-11. See also Christensen, N., et al. supra note 
X. p. 2 (``removal of small diameter material is most likely to have a 
net remedial effect'').
    \24\ Skinner, C.N., M.W Ritchie, and T. Hamilton. In press. Effect 
of Prescribed Fire and Thinning on Wildfire Severity: the Cone Fire, 
Blacks Mountain Experimental Forest. Proceedings 25th Vegetation 
Management Conference, Jan. 2004, Redding, CA. Online at http://
www.fs.fed.us/fire/fireuse/success/R5/ConeFire-Skinneretal.pdf. pp. 9-
10.
    \25\ Cram, D.S., T.T. Baker, and Jon C. Boren, supra note 3. pp. 7, 
p, 13.
---------------------------------------------------------------------------
    The most striking contrary results come from a study of paired 
sites on national forests in the Sierra Nevada. The researchers took a 
comprehensive approach, reviewing all areas known to have been 
mechanically thinning and later burned, outside of experimental 
forests, between 2000 and 2005. They found that in every instance the 
thinned stands burned more lethally, irrespective of the time since 
thinning.\26\
---------------------------------------------------------------------------
    \26\ Hanson, C.T. and D.C. Odion. 2006. Fire Severity in 
mechanically thinned versus unthinned forests of the Sierra Nevada, 
California. In: Proceedings of the 3rd International Fire Ecology and 
Management Congress, November 13-17, 2006, San Diego, CA. Online at: 
http://www.emmps.wsu.edu/2006firecongressproceedings/
Extended%20Abstracts%20PDf%20Files/Poster/hanson.pdf.
---------------------------------------------------------------------------
    Between these two extremes is the detailed analysis conducted of 
the Hayman Fire in Colorado. There, the results were very mixed. The 
authors found that ``each of the different types of fuel modification 
encountered by the Hayman Fire had instances of success as well as 
failure in terms of altering fire spread or severity,'' with prescribed 
fire showing the greatest success.\27\
---------------------------------------------------------------------------
    \27\ Martinson, E., P.N. Omi, and W. Shepperd. 2003. Effects of 
Fuel Treatments on Fire Severity, in Hayman Fire Case Study, Graham, 
R.T., Tech. Ed. RMRS-GTR-114. Ogden, UT. U.S. Forest Service, Rocky 
Mountain Research Station. p. 96.
---------------------------------------------------------------------------
    The uncertainty that these studies embody is heightened by their 
temporal limitations. Restoration thinning will not be, on balance, 
successful and worth the investment, if it does not lower the risk of 
abnormal fire effects over a number of years. Manipulation of forest 
structure could decrease fire intensity at some point, but raise it at 
others. The period directly after thinning, for instance, is often a 
period of heightened risk from activity fuels that loggers leave 
behind. Similarly, opening forests by heavily thinning them may lower 
risks at some period, but increase them during drought or after a 
growth spurt among small trees and understory vegetation, stimulated by 
increased sunlight. Thus the limited snapshot provided by a small 
number of studies does not assure us that reduced fire impacts under 
one set of circumstances will translate into landscape level success if 
broadly applied.
    One important exception should be noted to the very substantial 
uncertainty that exists about where and how to thin for fire risk 
reduction. We know quite a lot about how to make homes and other 
buildings survive fires. Thinning forests away from structures is not 
the answer. The Cerro Grande fire in Northern New Mexico vividly 
illustrates this. Shortly after the fire, Forest Service researcher 
Jack Cohen investigated the loss of 200 homes from the fire in Los 
Alamos. Cohen found that the fire entered the town as a low intensity 
ground fire. House after house burned to the ground while nearby trees 
survived. The cause was neither big flames nor wooden roofs, but 
flammable material on, adjacent to, and near the buildings.\28\
---------------------------------------------------------------------------
    \28\ Cohen, J. 2000. Examination of the Home Destruction in Los 
Alamos Associated with the Cerro Grande Fire, July 10, 2000. Online at: 
http://www.nps.gov/fire/public/pub_publications.cfm.
---------------------------------------------------------------------------
    Cohen and others have shown that, while homesites that are not 
fire-ready are destroyed by even low intensity burns, well-prepared 
ones survive even very hot wildfires. NRDC has summarized the needed 
measures in a report submitted with this testimony and based on a study 
led by former California State Fire Marshall Ron Coleman.\29\ In sum, 
trees have to be kept thinned within a few hundred feet of homes, 
vegetation and other flammable material must be pulled back from around 
buildings, and the roofs, siding, doors, vents, eaves, and windows of 
structures need to be designed or retrofitted to withstand heat and 
sparks. When these measures are taken, home survival is very high in 
any wildfire. Notably, thinning is needed across forest types in the 
homesite context. The issue is not restoration of natural fire 
frequencies and other ecological processes. Rather, it is reducing 
flame heights near structures, regardless of how fires would normally 
burn in the area absent human influences.
---------------------------------------------------------------------------
    \29\ Mall, A. and F. Matzner. 2007. Safe at Home: Making the 
Federal Fire Safety Budget Work for Communities. NRDC. New York, NY. 
Online at: www.nrdc.org/safeathome.
---------------------------------------------------------------------------
    Securing lives and communities from wildfire is, of course, a very 
high priority in its own right. It also plays a very significant role 
in forest restoration. There is no debate that forest health problems 
are caused or exacerbated by fire suppression. The Forest Service has 
known since at least 1930 that putting out fires aggressively leads to 
bigger fires later.\30\ So forest ecologists early on opposed the 
agency's ``10 a.m.'' policy of putting out all fires by early the day 
after discovery, whenever possible.\31\ But sure knowledge of long-term 
harm is, predictably, often outweighed by the near term threat of 
disaster. As long as fire crew bosses have to worry about a fire 
getting out of control and overwhelming some community, even a 
relatively remote one, we should not expect to break the cycle of 
suppression, threat, and suppression again that currently thwarts 
forest restoration, and breaks the agency's budget. In short, community 
fire preparedness is as critical an ecological issue as it is a human 
safety one.\32\ And because fire suppression decisions forced by 
community exposure entail enormous budget outlays, it is also a key 
economic factor.
---------------------------------------------------------------------------
    \30\ Benedict, M.A. [Supervisor of the Sierra National Forest]. 
1930. Twenty-one years of Fire Protection in the National Forests of 
California. Journal of Forestry 28:707-710. Weaver, H. 1943. Fire as an 
ecological and silvicultural factor in the ponderosa pine region of the 
Pacific slope. Journal of Forestry 41:7-15.
    \31\ Cram, D.S., T.T. Baker, and Jon C. Boren, supra note 3. p. 1.
    \32\ Odion et al., supra note X. p. 935 (``Treating the home-
ignition zone as described by Cohen (2000) can almost eliminate the 
possibility of homes burning in wildfire. This would increase fire-
management options and perhaps ultimately further conservation 
goals'').
---------------------------------------------------------------------------
    Several policy implications emerge from these studies.

          1) Forest restoration needs to be approached as an 
        experiment, with caution;
          2) Thinning currently appears most appropriate in 
        southwestern ponderosa pine forests;
          3) Small tree removal is safest and most likely to restore 
        fire regimes;
          4) Failure to burn when thinning lessens success;
          5) Restoration requires addressing factors other than tree 
        density; and
          6) Securing homesites and communities is a prerequisite to 
        restoration.

    As the Forest Landscape Restoration Act moves through the 
legislative process, NRDC hopes that you, Mr. Chairman, and your Senate 
colleagues will consider refining the bill, to fully incorporate these 
conclusions. Recognizing the very substantial care, thought, and 
revision that have already gone into S. 2593, we would like to take 
this opportunity to suggest several specific areas to look at.
    First, is the issue of project size. The bill specifies a minimum 
of 50,000 acres for each proposal. Sec. 4(b)(1)(B)(i). No maximum is 
given. We need reasonable limits on how much of the forest landscape to 
experiment with. This is partly to limit the risk from applying a 
discipline in its infancy. And partly it is to ensure that as 
experience is gathered, plans are rethought and lessons learned are 
applied. Limiting project size will also be important in keeping by-
product utilization scaled to support restoration decisions rather than 
to drive them, as a large processing facility would likely come to do 
over time. From these perspectives, 50,000 acres looks more appropriate 
as an upper limit than a lower one.
    Second, without a commitment to monitoring, we should not expect to 
learn from experience as much or as fast as we need to. The bill 
appropriately calls for monitoring for at least 15 years after 
implementation starts. Sec. 4(g)(4). The Achilles heel of all Forest 
Service monitoring, however, is funding. Every national forest has 
monitoring plans. Few if any are fully implemented. Proposals under 
this bill, or funding decisions by the Secretary under sec. 4(f), 
should commit to paying for the full suite of monitoring and analysis 
activities needed to understand how experimental restoration plays out 
over time and how to do it better next time. Congress needs to take 
away the option to let monitoring slip.
    Third, the bill should ensure priority for projects most likely to 
meet with success. Based on what we now know, such projects will be in 
lower ponderosa pine sites, particularly in the Southwest, limit 
thinning--with few exceptions--to small diameter trees, include burning 
as a restoration treatment, reduce road density and grazing, and 
include or be coordinated with a Firewise or similar preparedness 
program in local communities. The bill has, now, features which should 
tend to promote such projects. These include the requirement that 
strategies incorporate the best available science and that up to 12 
experts advise the Secretary on ``the strength of the ecological case 
of the proposal.'' Secs. 4(b)(1)(C) and 4(e)(1). The bill also mandates 
that collaborative processes ``describe plans to'' among other things 
use fire ``where appropriate,'' control invasive exotic species, and 
maintain or decommission roads. Sec. 4(b)(3). These provisions identify 
important aspects of restoration. They do not, however, assure that any 
of the priorities listed above will guide selection of proposals for 
funding or reliably be implemented. Congress, if it is to expect 
results and use scarce funds well, should not hesitate to require these 
project elements, subject to periodic re-examination by the Secretary 
in light of monitoring results and scientific advice.
    Fourth, the experimental nature of this work dictates that 
essentially no one has a meaningfully proven track record. The proof 
that a given approach works under a specific set of conditions will 
only emerge over time. It is, at this point in time, not really 
possible, in the relevant sense, for a project-proposing collaborative 
process to have ``an established record of successful planning and 
implementation of ecological restoration projects on National Forest 
System land,'' as sec. 4(b)(2)(C) now requires. We therefore suggest 
dropping this requirement to avoid creating a needless dispute point 
during the bill's implementation.
    In closing, I would like to thank you Mr. Chairman, again, for the 
opportunity to offer this testimony. S. 2593 is a welcome move towards 
the start of a long and careful process of national forest landscape 
rehabilitation. It contains numerous provisions which will help 
strengthen such work as it is undertaken. In NRDC's view, I would 
stress, where new funding is found to address forest restoration, our 
top priority should be on local community Firewise programs, without 
which forest restoration cannot succeed. We cannot break the expensive, 
self-reinforcing, and damaging cycle of fire suppression until 
communities can survive fire.
    I would be happy to answer any questions which you or Members of 
the Committee may have.
                                 ______
                                 
                               Exhibit 1
                                                 September 9, 2002.
President George W. Bush,
The White House, 1600 Pennsylvania Avenue, Washington DC.
    Dear President Bush: As fire researchers and ecologists, we are 
writing to you concerning the scientific basis for efforts to reduce 
risks from the kinds of forest fires that have attracted so much media 
and political attention in the western United States this year. As we 
elaborate below, responding effectively to this fire situation requires 
thoughtfulness and care. The fires are traceable to differing factors 
in different regions and forest types. Some have burned in forests 
where fire exclusion and land use have created unnatural accumulations 
of fuels while others have burned in a relatively natural manner. The 
most debated response to alleviating destructive fires in the future--
mechanically thinning trees--has had limited study, and that has been 
conducted primarily in dry forest types. Thinning of overstory trees, 
like building new roads, can often exacerbate the situation and damage 
forest health. Whatever restoration measures are undertaken, preventing 
the re-emergence of fire problems will require a commitment to manage 
with fire rather than simply trying to exclude it in the future.
    No single cause can explain the variety and number of fires 
occurring this year in western forests. In some drier forest types, 
such as the semi-arid ponderosa pine ecosystems, fire exclusion aided 
by grazing and logging has produced accumulations of highly flammable 
fuel well outside historical norms. However, in many western forests, 
including parts of the Siskiyou (mountains of the Biscuit fire), Sierra 
Nevada, Cascades, and Central Rockies, much of the undergrowth is 
primarily the product of succession from past logging and other 
disturbance, rather than fire exclusion alone. In other settings, like 
southwestern chaparral and the lodgepole pine forests of the Rockies, 
succession naturally produces highly flammable communities, and 
periodic crown killing fires are inevitable and ecologically desirable. 
Drought conditions such as those seen across much of the West this year 
can produce extensive fires even in areas where fuel loads are 
``normal.'' In all of these areas, increased human activity and 
habitation on fireprone landscapes have greatly increased the chances 
of ignitions and the threats to people and their property when 
wildfires do occur.
    We have no simple, proven prescription for meeting this challenge 
throughout the West. In semi-arid ponderosa pine forests effective 
restoration may result from cutting small-diameter trees in overly 
dense stands. However the benefits can only be realized and maintained 
in the long term through an aggressive post-restoration prescribed fire 
program that removes surface fuels. The value of thinning to address 
fire risks in other forest ecosystems is still poorly understood. 
Although a few empirically based studies have shown a systematic 
reduction in fire intensity subsequent to some actual thinning, others 
have documented increases in fire intensity and severity. Models and 
theories have been advanced to explain these results, but reliable data 
remain scarce.
    In some areas the use of prescribed fire without any ``thinning'' 
would be the best restoration method. Indeed, many forests in the West 
do not require any treatment. These are forests that for thousands of 
years have burned at long intervals and only under drought conditions, 
and have been altered only minimally by 20th century fire suppression. 
These forests are still ``healthy'' and thinning would only disturb 
them, not ``restore'' them. In short, the variation among our forested 
landscapes is much too great for one treatment to be appropriate 
everywhere.
    Where thinning is used for restoration purposes in dry forest 
types, removal of small diameter material is most likely to have a net 
remedial effect. Brush and small trees, along with fine dead fuels 
lying atop the forest floor, constitute the most rapidly ignited 
component of dry forests (young forest stands regenerating after timber 
harvest often burn with the greatest intensity in western wildfires). 
They most surely post-date management-induced alteration of dry forest 
fire regimes. And their removal is not so likely to increase future 
fire intensity, for example from increased insolation and/or the drying 
effects of wind.
    In contrast, removal of more mature trees can increase fire 
intensity and severity, either immediately post-logging or after some 
years. These trees provide ``insurance'' because they often survive 
surface fires and can speed post-fire recovery. Even if they are 
diseased, dying or dead, large and old trees and snags are important to 
many wildlife species and ecosystem functions. Building or re-opening 
roads to facilitate thinning will also heighten fire risks, since roads 
correlate with increased numbers of human-started fires. Removing more 
than small trees and constructing roads will also make collateral 
damage to forest ecosystems more likely (e.g., through effects on water 
quality, fish populations, and the spread of invasive species). 
Therefore, where done, this kind of thinning needs particularly careful 
planning and implementation. The results require faithful monitoring 
and analysis before any effort to extrapolate the practice to other 
segments of the forest landscape.
    Forests are dynamic biological systems and their management 
requires integration of approaches over time and space. Thus, whatever 
remediation or restoration is undertaken in dry forests, close 
attention must be paid to the future management of the treated forests. 
Because of the inevitability of fire in these systems, the goal of 
restoration has to be landscapes in which we can better control the 
fires we do not want and promote the ones we do. However, without a 
thoughtful post-treatment prescribed fire management program, the 
forest will likely return to its current highly flammable state within 
a decade or two, losing--among other things--the public investment made 
in treating it.
    The location of management treatments is similarly important. 
Strategic placement of management activities such as thinning and 
burning within landscapes is critical to accomplishing the most benefit 
with minimal ecological impact. As an important example, protecting 
buildings, powerlines, and water supplies will be most effectively 
accomplished by reducing fuels near them.
    In summary, fire threats in western forests arise from many causes, 
and solutions will require a suite of treatments adjusted on a site-by-
site basis. Enough experience exists to suggest areas such as the semi-
arid ponderosa pine forests where we can, now, undertake corrective 
action. However, neither the magnitude of the problem nor our 
understanding of treatment impacts would justify proceeding in panic or 
without thorough environmental reviews. Moreover, whatever treatments 
we undertake must include provisions for long-term maintenance, 
integration of fire, and robust monitoring.
            Very truly yours,
                    Norman L. Christensen, Jr., Dean Emeritus and 
                            Professor of Ecology, Nicholas School of 
                            the Environment and Earth Sciences, Duke 
                            University; Thomas W. Swetnam, Professor of 
                            Dendrochronology & Watershed Management and 
                            Director of the Laboratory of Tree-Ring 
                            Research, University of Arizona, Tucson; 
                            Don C. Erman, Professor Emeritus, 
                            University of California-Davis; David 
                            Perry, Professor Emeritus, Ecosystem 
                            Studies and Ecosystem Management, Oregon 
                            State University; Affiliate Professor, 
                            University of Hawai'i, Hilo; Penelope 
                            Morgan, Professor of Forest Resources, 
                            University of Idaho; Scott Stephens, 
                            Assistant Professor of Fire Science, 
                            Department of Environmental Science, 
                            Policy, and Management, University of 
                            California, Berkeley; Philip N. Omi, 
                            Professor of Forest Fire Science, Colorado 
                            State University; Lisa Graumlich, Professor 
                            of Land Resources & Environmental Sciences, 
                            Montana State University; William H. Romme, 
                            Professor of Forest Sciences, Colorado 
                            State University; Paul H. Zedler, Professor 
                            of Environmental Studies, University of 
                            Wisconsin, Madison; J. Boone Kauffman, 
                            Professor of Fire Ecology, Department of 
                            Fisheries and Wildlife, Oregon State 
                            University; Dr. William L. Baker, Professor 
                            of Fire Ecology and Landscape Ecology, 
                            University of Wyoming.

    Senator Lincoln. Great. Thank you, Mr. Lawrence. Mr. Gross, 
is that right?
    Mr. Gross. Gross.
    Senator Lincoln. Gross.

 STATEMENT OF HOWARD GROSS, EXECUTIVE DIRECTOR, FOREST GUILD, 
                          SANTA FE, NM

    Mr. Gross. Thank you. Senator Lincoln and also thanks to 
the other members of the committee for the opportunity to 
testify here today about Forest Landscape Restoration Act.
    My name is Howard Gross, and I'm the Executive Director of 
the Forest Guild.
    The Guild is a national organization of more than 600 
foresters and allied professionals who manage our country's 
forestlands and advocate for forestry as ecologically, 
economically and socially responsible.
    Other organizations endorsing the Guild's testimony today 
are all partners in the Rural Voices for Conservation 
Coalition, Sustainable Northwest, American Forests, Watershed 
Research and Training Center, Wallowa Resources, and Northwest 
Connections.
    The Forest Guild supports the Forest Landscape Restoration 
Act. The need for the bill and the landscape scale approach it 
takes is well founded. The committee's heard excellent 
testimony from other witnesses today and over the years about 
the degraded conditions of our public lands and the lack of 
adequate on-the-ground progress in addressing these issues.
    So, I won't to elaborate further on that, other than to 
reiterate the projects and the learning that would be funded by 
this bill are greatly needed.
    Regarding the programs the bill would create for infused 
project eligibility criteria to endeavor to move beyond a focus 
on fuels reduction and various multiple forest values, build 
local business capacity and benefit rural communities.
    Such criteria require that projects under this bill use a 
collaborative approach, address ecosystem issues, such as 
wildlife habitat, water quality, invasive and exotic species 
and roads, utilize woody biomass and small diameter trees to 
offset treatment costs, and develop small business incubators 
and provide employment training opportunities.
    The dedicated funding and 10-year program timeline defined 
by the bill are critical to providing the consistent supply of 
restoration byproducts for businesses to justify their 
investment.
    There are a number of opportunities that the Forest Guild 
and its partners see for strengthening this legislation. The 
first, the focus on collaboration in the bill is welcome and 
very needed, but the collaborative language in the bill is a 
little overly restrictive.
    We recommend it be modified to allow submission of projects 
from new collaborative efforts. These individuals have 
significant collaborative restoration success but maybe haven't 
worked together in the exact partnership that's making 
application under the program.
    Second, the bill does not define how a regional forester 
would select proposals to nominate for this program, and we 
recommend that the bill be modified to require an open and 
competitive process at the regional level for selection of 
proposals.
    Third, we feel that the bill's eligibility criteria and the 
selection criteria need to be more tightly linked. The 
eligibility criteria identify several ecological and rural 
economic and social objectives the project should plan to 
achieve and this is really positive, but the selection criteria 
should more specifically call for their consideration in the 
selection of projects.
    Fourth, the bill currently identifies the scientific 
advisory panel that is required and a technical advisory panel 
that is optional, and we recommend combining these two panels 
into one required national advisory panel whose members have 
the diverse scientific backgrounds that represent all the 
bill's eligibility and selection criteria.
    Then last but not least, we very much support the bill's 
focus on multiparty monitoring and on performance measures and 
outcomes, rather than simply on traditional outputs, such as 
acreage treated, but these objectives would be better 
supported, as would the overall purposes of the bill, if there 
were greater clarity in the bill that funds can be used for 
effectiveness and implementation monitoring.
    I think all of the testimony today from my fellow panelists 
has been really good. I haven't heard anything really 
contradictory to what this bill is trying to achieve, and I 
feel the committee has a strong consensus from the diverse 
stakeholders that this bill, with a couple of minor 
modifications, is very much needed and has a lot of support.
    So with that, again thanks for the opportunity to testify. 
I hope this bill does become law and I would be happy to answer 
your questions.
    [The prepared statement of Mr. Gross follows:]

 Prepared Statement of Howard Gross, Executive Director, Forest Guild, 
                              Santa Fe, NM
    Good morning Chairman Bingaman, ranking member Domenici, and other 
members of the Committee. I thank you for the opportunity to testify 
today about S. 2593, the Forest Landscape Restoration Act. My name is 
Howard Gross and I am the Executive Director of the Forest Guild.
    The Forest Guild is a national organization of more than 600 
foresters, allied professionals, and supporters who manage our 
country's forestlands and advocate for ecologically sound forest 
practices. Our mission is to practice and promote ecologically, 
economically, and socially responsible forestry--``excellent 
forestry''--as a means of sustaining the integrity of forest ecosystems 
and the human communities dependent upon them. The Forest Guild's roots 
in New Mexico go back 24 years in building, developing, and managing 
forestry-related programs with rural, forest-based communities and 
partners. In addition to our headquarters in Santa Fe, we maintain 
staff in Massachusetts, California, and Tennessee, and have volunteer 
coordinators in five other states.
    The Forest Guild is also a member of the Rural Voices for 
Conservation Coalition (RVCC). RVCC is a coalition of western rural and 
local, regional, and national organizations that have joined together 
to promote balanced conservation-based approaches to the ecological and 
economic problems facing the West. Other RVCC partner organizations 
that endorse this testimony are Sustainable Northwest, American 
Forests, Watershed Research and Training Center, Wallowa Resources, and 
Northwest Connections.
    On behalf of the Forest Guild and these organizations, I want to 
thank Senators Bingaman and Domenici, as well as other co-sponsors of 
S. 2593, for their leadership on forest restoration issues, for their 
hard work and thoughtfulness in developing this legislation, and for 
recognizing the connections between forest restoration, a sustainable 
small-scale timber-based economy, and the well-being of rural 
communities. Addressing complex ecological forest issues, improving 
agency effectiveness and efficiency, and promoting rural well-being are 
not easy tasks. We appreciate the opportunity to provide our input into 
this process and look forward to working with you to further develop 
this legislation to ensure it achieves its worthwhile goals.
    The Forest Guild supports the Forest Landscape Restoration Act's 
intent of encouraging ecosystem restoration at the landscape level with 
a focus on reestablishing natural fire regimes, reducing the risk of 
uncharacteristic wildfire, leveraging local and private resources with 
national resources, and demonstrating how wildfire management costs can 
be reduced through the use of restoration by-products while achieving 
ecological objectives.
    We are particularly enthused to see eligibility criteria that 
address a range of process concerns and values that are important in 
moving beyond a limited focus on fuels reduction and toward a more 
comprehensive approach to forest restoration. For example, several key 
eligibility criteria require:

  <bullet> a collaborative approach to developing and implementing 
        restoration projects (Section 4(b)(2)),
  <bullet> plans to use woody biomass and small-diameter trees from 
        restoration projects (Section 4(b)(3)(F)),
  <bullet> plans to develop small business incubators and provide 
        employment and training opportunities as means of providing 
        economic and capacity building benefits for rural 
        communities(Section 4(b)(3)(H)), and
  <bullet> plans that specifically address other forest values such as 
        wildlife habitat, water quality, and invasive and exotic 
        species (Section 4(b)(3)(B, C, D)).
     the need for greater federal investment in forest restoration
    The conditions on our western forests dictate the need for a 
restoration program that takes a landscape-scale approach. The 
confluence of a number of factors--particularly a century of land use 
and management practices, including fire suppression, and a warmer 
climate and drought over recent decades--have helped make our forests 
prone to fires that are more extreme and far-ranging than historically 
experienced and that are causing profound changes to our forested 
ecosystems. These fire-prone conditions exist across millions of acres, 
presenting the need for strategies that address both high-priority 
areas such as Wildlands-Urban Interface (WUI) areas as well as larger 
landscapes.
    While fire plays a necessary and important role in most forested 
ecosystems, many of our forest ecosystems need to be restored to more 
fire-adapted conditions before fire can play that role. The fact is 
that more forestland has burned in the last decade than in any ten-year 
period since record keeping began in 1960. These wildfires are 
consuming the U.S. Forest Service budget at an ever-increasing rate, 
while the agency's overall budget has remained relatively flat. As a 
result, the agency has had to allocate funding from other resource 
management programs to wildland fire management in order to keep pace. 
Over the last 18 years, funding for wildland fire management has 
increased from 13 percent to 45 percent of the agency's budget.
    Furthermore, an increasing portion of the funding for wildland fire 
management is being allocated to wildfire suppression relative to fuels 
reduction and forest restoration activities. A major strength of the 
Forest Landscape Restoration Act is that it provides new strategies to 
focus federal financial resources on restoration in high-priority 
landscapes, to provide greater assurances that funding will be 
available over a ten-year period (allowing for a consistent program of 
restoration work on the land), and to provide greater incentives for 
private sector investment to build local business capacity based on the 
use of restoration byproducts, thus providing job opportunities and 
other economic benefits to rural communities.
    In recent years, Congress has taken several actions to address 
growing wildfire and forest restoration concerns through federal 
collaborative efforts with states and local communities. Each of these 
legislative actions, such as the National Fire Plan, the Secure Rural 
Schools and Community Self-Determination Act, the Healthy Forest 
Restoration Act, and the Community Forest Restoration Act for New 
Mexico, has provided model approaches and demonstration projects 
through which lessons have been learned. Another one of the strengths 
of the Forest Landscape Restoration Act is that it has been informed by 
these models and lessons. It is addressing a major need identified 
through other projects to direct resources toward collaborative 
landscape-scale restoration projects and it is adopting a number of 
provisions that have been useful in other programs. Thus, this 
legislation is building from earlier programs and taking the next step 
in developing a model to address longer-term, landscape-scale 
restoration, primarily on federal lands. This is an important step 
towards our vision of developing a comprehensive forest restoration 
program that invests in ecosystem health across public and private 
forest lands, addresses a broad range of environmental values, and 
creates economic opportunities and benefits for rural communities.
    We would also like to call attention to the challenge of providing 
long-term funding for Collaborative Forest Landscape Restoration 
Program projects. While we are very supportive of S. 2593 authorizing 
significant funding for the Collaborative Forest Landscape Restoration 
Fund, that level of funding is still subject to the annual 
appropriations process. If this bill becomes law, the resulting project 
proposals would be much stronger if there were greater certainty of a 
long-term funding commitment from Congress and the agencies so that 
businesses and communities would have greater incentive and less risk 
in investing in this program.
                  opportunities to strengthen s. 2593
    As stated earlier, we commend the Senators sponsoring this 
legislation for recognizing the need for landscape-level restoration 
linked with economic and social sustainability. We also appreciate the 
opportunity to provide the constructive input that follows regarding 
how this legislation can be strengthened.

          1. Collaborative requirements need improvement.--We agree 
        with the need to clearly define the type of programs that will 
        be eligible under S. 2593, and we specifically support the 
        focus on projects that have been developed collaboratively. 
        However, Section 4(b)(2)(C) as currently written, requiring 
        that collaborators proposing a project must have ``an 
        established record of successful planning and implementation of 
        ecological restoration projects on National Forest System 
        lands,'' may be overly restrictive. Does this mean that a 
        collaborative must already be in existence and the ``record of 
        success'' must be that of the collaborative? What about 
        entities that come together to make application under this 
        legislation that individually have had significant 
        collaborative restoration success but have never worked 
        together in the exact collaborative that has come together to 
        propose a project?
            While we understand the importance of collaborative 
        partners having experience and a track record, we also believe 
        it is important for this program to encourage new collaborative 
        efforts. We recommend that the project proponents' collective 
        collaborative experience be included as a weighted criterion in 
        the selection process, but we do not believe that it should be 
        an eligibility criterion.
          2. Ensure the program is an open and competitive process.--We 
        support S. 2593's focus on landscape-scale and a 10-year 
        horizon for planning, implementation, and monitoring. However, 
        we believe the bill would be strengthened considerably if the 
        following components were added. (a) The process that leads to 
        a Regional Forester nominating proposals for selection by the 
        Secretary (Sec. 4(c)(2)) should be an open and competitive 
        process whereby new and existing collaboratives are given the 
        opportunity to propose projects. (b) Every two years there 
        should be request for new proposals that can be submitted to 
        the Regional office through an open and competitive process. 
        (c) The Regional offices should be encouraged to use a multi-
        stakeholder proposal review committee (similar to that used by 
        the Collaborative Forest Restoration Program in New Mexico) to 
        ensure broad regional agreement on priority landscapes and 
        increase chances to leverage private, state, and other 
        resources.
            Incorporating the above will (a) ensure that projects are 
        achieving their goals and/or adjusting to new circumstances, 
        allowing true adaptive management to occur; (b) ensure adequate 
        monitoring of the progress of collaborative efforts, and (c) 
        provide added incentives for collaborative groups to approach 
        restoration from a landscape-scale and to achieve ecological, 
        economic, and social sustainability.
          3. Proposal eligibility criteria and evaluation criteria need 
        to be linked.--Connected to our recommendation 2 above to make 
        the selection of projects under this program an open and 
        competitive process, and to accomplish the landscape-scale 
        objectives of S. 2593, we believe that the criteria spelled out 
        as part of the selection process must mirror the eligibility 
        criteria. Currently, the selection criteria (Sec. 4(d)(2)) 
        don't clearly match up with the eligibility criteria (Sec. 
        4(b)), especially criteria (B), (C), (D), (E), (H), and (I) 
        spelled out under Sec. 4(b)(3) that identify multiple 
        ecological and rural economic and social objectives that 
        projects should plan to achieve. These are important criteria 
        for comprehensive restoration projects, and if they are listed 
        as eligibility criteria than they should be included in the 
        selection criteria.
            In addition, as S. 2593 now reads, Sec. 4(d)(2)(A) and Sec. 
        4(d)(2)(E) of the selection criteria are very similarly; the 
        latter section could be modified to ensure that the selection 
        criteria consider the eligibility criteria of Sec 4(b)(3) 
        above.
          4. Improve and streamline the Advisory Panel structures. The 
        current bifurcation of the Scientific and Technical Advisory 
        Panels (Sec. 4(e)), and requiring the Scientific Advisory panel 
        (``The Secretary shall establish . . .'') but not the Technical 
        Advisory Panel (``The Secretary may establish . . . .'') 
        doesn't seem to support the integrative nature of S. 2593 
        (encouraging ``ecological, economic, and social 
        sustainability'' (Sec. 2(1))). Thus, we have three relevant 
        recommendations: (a) combine the two panels into one National 
        Advisory Panel; (b) ensure the composition of the National 
        Advisory Panel has diverse scientific backgrounds, include 
        those with expertise in collaboration and community capacity 
        building; and (c) enlist the National Advisory Panel to review 
        progress being made and reported by projects funded through 
        this program.
          5. Clarification of use of funding for monitoring.--We 
        support the focus on development of performance measures and 
        outcomes, rather than simply traditional outputs, as well as 
        the strong requirements for multi-party monitoring. We would 
        like there to be greater clarity that funds can be used for 
        effectiveness and implementation monitoring. It is not 
        sufficient for the agencies to simply monitor process or to 
        just collect traditional information based on old forest 
        management priorities. We need make it possible to collect 
        meaningful information that will let the American public know 
        that environmental conditions are improving and that local 
        businesses are thriving by working to restore public lands.
          6. Consider delivery mechanisms for technical assistance to 
        projects.--This bill is extremely innovative in many ways. The 
        projects selected will be pioneering new approaches to 
        landscape-scale restoration and the development of value-added 
        enterprises that will support this restoration work. There will 
        be a need for on-going technical assistance related to 
        collaboration, project design, business development, and other 
        dimensions of implementation and monitoring. With the loss of 
        the Economic Action Programs, the Forest Service has no way to 
        deliver this assistance in a coordinated or effective manner. 
        We strongly encourage the exploration of how to address these 
        technical assistance needs proactively. Delivering such 
        assistance will contribute to the success of projects funded 
        through this legislation and will help build a robust program 
        of work around comprehensive restoration across priority 
        landscapes.

    Senator Lincoln. Thank you, Mr. Gross. Thanks to all of you 
all for being here and along with the first panel to assist us 
in trying to get it right. That's the whole purpose of these 
hearings and certainly our work, is not to create necessarily a 
work of art or at least one that we have too much pride in 
authorship in but one that is a work in progress and that's 
going to be beneficial to everybody and that is particularly 
those constituencies that we all have that thoroughly enjoy the 
forests and, of course, I grew up in the forests of Arkansas.
    I grew up as a farmer's daughter but although my dad's 
profession was being a rice farmer, his love was turkey hunting 
in the St. Francis National Forest, and so I spent many a day 
walking through that forest with him and he knew every inch of 
it and loved every single inch of it. He grew up in it and as 
many Arkansans, we all very much appreciate the natural 
resources that we've been blessed with in our State, and I say 
that not just as someone who uses them for recreation but also, 
Mr. West, from our forest products industry and all of the 
different groups that work very, very hard.
    I was proud of the emblems there to indicate the 
collaborative effort that we see and I have always been proud 
of the best management practices that have come about because 
everyone involved in using the forests comes to the table in 
Arkansas and that's important. Whether it's our loggers or our 
Forest Service, the National Forest Service, the State group or 
our Nature Conservancy and all of the other different groups 
that are affected come to the table and try to figure out the 
best way to both preserve and use our forests in a way that's 
going to be productive and sustainable for future generations 
because, as I said, most of us have grown up there and so we 
want to pass it on to future generations.
    I have twin boys that are 11 years old and let me tell you, 
if there's anything they love, it is being out there in the 
woods, whether it's on the Buffalo River floating and camping, 
whether it's fishing on the Little Red or the White or out in 
the forest turkey hunting or just enjoying it.
    So, we appreciate your input into what we're trying to do 
here and very grateful for your ideas.
    Just a bit of housekeeping. Just in case, want to make sure 
that you all are definitely aware that there will be members of 
the committee that might like to submit questions to you and 
hope that you'll be prepared to answer the committee in writing 
and that's something certainly we want to make sure that all 
members have the opportunity to do.
    I also want to thank the chairman. Chairman Bingaman is a 
wonderful individual to work with and takes very seriously our 
opportunities here in the committee to be able to do good 
things and be progressive, and I appreciate the opportunity to 
talk about this bill and again some of the successes in my home 
State of Arkansas that we've had in implementing similar types 
of measures and again want to thank Scott Simon, our Arkansas 
State Director of the Nature Conservancy, for not only being 
here today but all the leadership he provides at home.
    Our office has worked a great deal with Scott on a number 
of issues, including the Ivory-Billed Woodpecker, which my 
brother is still looking for. My father swore that that bird 
was still out there and so we're all still looking to get that 
photograph.
    But we're very appreciative of your tremendous expertise 
and dedication to wildlife issues, Scott. We really appreciate 
that. We're truly lucky to have you in Arkansas and appreciate 
it and look forward to continuing to work with you on this and 
other pieces of legislation. We've got a lot to do.
    As Scott had noted in his testimony, Arkansas undertook a 
similar effort in response to an outbreak of the Red Oak bore 
insects and, you know, it was amazing to me when I toured those 
forests to see the devastation that could happen just from that 
infestation of insects and what may have caused that in terms 
of the design of the forests and not being able to keep it in 
the appropriate manner that it needed to be kept in order to 
avoid those types of insect infestations.
    The restoration project has been a success and it proves, I 
think, an important point, that forest health and fire 
management is not just a western issue. I spoke about that 
continually here in Washington to the extent that I got the 
attention of Senator Crapo who is delightful to work with on 
that and many other issues that I worked with him on and so 
hopefully we've been able to put to rest the common assumption 
up here that it's just a western issue.
    Our forests are precious to us in the South. We're very 
proud of our forestlands in the South and we want to do all 
that we can to preserve it and so we do feel like we have equal 
opportunities in terms of the way that we can work 
collaboratively both as Westerners or Southerners or Easterners 
or anything else to ensure good practices that will sustain our 
forests for future generations.
    So, we appreciate your testimony here today and certainly 
your interest in working with us.
    I would like again to ask Scott, if you could share with us 
a little bit more some of the challenges that you faced in the 
project that we had in Arkansas, you know, if there were any 
challenges specifically that you want to make sure that we're 
aware of here that we don't have to repeat, and maybe if there 
are any other large cooperative restoration projects, like what 
we did in Arkansas, around the country that you might 
reference.
    Mr. Simon. Thanks, Senator Lincoln. Thanks for your always 
kind words.
    The challenge is it really came down to, and it still 
happens today, it's just a challenge in prioritization with all 
the agencies, and it also is, you know, wanting to spread the 
money around, but that when there's major fire suppression 
issues, borrowing the money from all of the projects and that's 
why we really support this bill because it would address much 
of that.
    Another neat thing which we've learned over the past few 
years as we've developed and worked on our projects is that 
there are many of them around the country and approximately 80 
that are similar to this.
    The Forest Service and the Department of the Interior 
developed a process with the Nature Conservancy called The Fire 
Learning Network which has been very successful and it brings 
people together that are teams that are working on projects, 
like this one, in other parts of the country so they don't have 
to learn in a vacuum. They don't have to learn on their own. 
They develop plans and their teams will have State agencies, 
Federal agencies, private non-profits, tribes, timber 
companies, and then they evaluate each other's work, so that 
the plans are themselves successful and solid, and then they 
evaluate each other's progress as the projects develop.
    So that in Arkansas, that's been really key to our success, 
is that we were able to get great feedback from New Mexico or 
Florida or California, so we didn't have to learn it all 
starting from scratch.
    Senator Lincoln. Which is great, as you said, and if we can 
learn from one another, it makes all the difference in the 
world. We don't have to go back to ground zero.
    The stewardship contracting was mentioned, I think actually 
it may have been Mr. West that mentioned it or brought it up, 
but you might, Scott, mention if the contracting is working or 
if it didn't work or why it may have had complications in 
particularly the Ozarks when we were in this effort.
    Mr. Simon. Yes, ma'am. It's a really--the Conservancy 
believes that it's a very good idea, but it's been--there's 
been some challenges in implementing it. So, great idea, but on 
the ground a lot of the potential contractors are not bidding, 
and I think it's because of the bureaucratic rules related to 
it.
    Even though the Forest Service staff are working very well 
with them, at least in Arkansas, but our small contractors look 
at that process and they just say that's just too much for me 
to handle. So, I don't think we have very many stewardship 
contracts in Arkansas because of that.
    Senator Lincoln. So, it's come to the hoops and whistles 
and everything else that they have to deal with on the smaller 
scale that's not even--doesn't make it that productive for them 
to engage in it?
    Mr. Simon. Yes, Senator.
    Senator Lincoln. Great. We've been joined by Senator Craig. 
So, my colleague, if you'd like to ask a few questions and I'll 
save a few of mine for later.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Senator, thank you very much. I'll be brief. 
You gentlemen have been here awhile and I am late in coming, 
but let me thank all of you for coming and giving your thoughts 
as we struggle with this issue of how we manage our public 
lands in light of some of the situations we've obviously begun 
to experience over the last good number of years.
    I've been involved in the forestry issue here from a public 
land perspective for about 28 years, having chaired the 
Forestry Subcommittee on a variety of occasions. I'm now 
teaming up again with Senators Feinstein, Domenici, and 
Bingaman on this Act, not unlike we did to create Healthy 
Forests, and that has worked to some extent, and it has given 
us greater access to our forests in the environment in which we 
find them to begin to do remedies.
    I would like to think that Mother Nature is kind and 
effective steward of her land, but when we hand it back to her 
after we've shaped it in the human image for decades upon 
decades, we've created extraordinary situations and in the West 
and in the Great Basin West that I'm most sensitive to, we have 
a phenomenal overpopulating of trees. We have sick, dead and 
dying forests as a result of a weakening health condition of 
these trees, based on drought, as a problem of over population 
per acre, therefore bug kill.
    Senator Lincoln, a good number of years ago, in fact in the 
mid 1990s, a group of our best experts in the country gathered 
in Idaho just as a point of gathering and reviewed the forests 
of the Great Basin West and these were the best that the Forest 
Service and our colleges and our universities and land grant 
schools and our forestry colleges had to offer and they 
concluded that our forests were sick, dead and dying as a 
general statement and that if we did not engage in active 
management of those forests, that we would reap the whirlwinds 
of wildfires and for the last decade, that is exactly what we 
are reaping.
    My State last year lost two million acres of forested 
lands, of watershed and wildlife habitat. We very fortunately 
avoided loss of property, but the grand old ski resort of Sun 
Valley was for a period of 2 weeks threatened by wildfires and 
as a result of those fires coming off from lands that are 
public, forested lands, just this last week, I was out there, 
and that city is now being handed a bill of $5 million for the 
threat that the public lands and the stewardship of those lands 
that brought about a wildfire.
    It's a bit of an irony. Now that we've saved you from 
ourselves, let us bill you. Pretty unique. Now we were pretty 
thankful at the time, obviously, but it is kind of a new 
reality today that we're experiencing that is very difficult in 
part to understand and, of course, as someone on the 
Appropriations Committee and the Authorizing Committee, we have 
for the last good number of years tried to figure out a way to 
change the old paradigm of funding because the old revenue 
flow's gone from our public lands, especially our forested 
lands.
    It once was the cash cow that funded everything and put 
money in the treasury. It was called green sales. It's called 
cutting trees. But we've decided that's no longer a popular and 
politically correct thing to do and as a result Mother Nature's 
decided to cut them herself, but we get no revenue in return. 
We just spend a lot of money trying to stop her.
    Last year in my State of Idaho, well known for its 
beautiful clear skies, there were probably more days of smoky 
valleys and high schools that started up in the fall whose kids 
couldn't go out on the field and recreate because of the forest 
fire smoke settling into our valleys.
    Now if that had been a private landowner burning, he would 
have been stopped by the EPA, but because it was Mother Nature 
burning, it was just OK, and Idahoans grow very frustrated by 
all of that and so we here collectively have struggled to try 
to decide how different to do that and how to deal with a 
variety of ways to not only reduce the overall costs, change 
the commands, do it in an appropriate way, make money go 
further, a whole combination of things that are tremendously 
important that we do, and, of course, this bill is another step 
in our effort to increase the treatments of the Federal lands 
in order to decrease the intensity or the severity of forest 
fires, decrease pests and disease, such as bark beetle, and 
provide for a defensible space for fire fighters, increased 
tree growth and regeneration.
    Last year, in our effort to try to understand what we did 
or didn't do, this will give you an interesting perspective 
because I and the senator are involved directly now in the 
great debate over climate change and what is and what isn't and 
this Congress can do something. We've got three Presidential 
candidates out there at the moment that all hold a similar 
position that they will bring to the presidency and we're going 
to make some hard decisions about climate change.
    Last year, the Federal lands released carbon into he 
atmosphere to the extent equivalent to 12 million automobiles 
on the road. It's a rather interesting figure, isn't it? Yet do 
you hear it talked about? Is this a great concern in climate 
change? I wasn't even allowed to bring a forestry amendment to 
the climate change bill for purposes of sequestration. Healthy 
forests, young forests are great carbon sinks. Old, dead and 
dying forests aren't because they already stored blocks of 
carbon and yet we're now ready to let that carbon be released 
back into the atmosphere.
    It's an interesting dichotomy that we're all facing at this 
moment and, finally, after all these years of shutting down and 
locking up, we're beginning to recognize that, yes, management, 
stewardship, wise and reasonable approaches to these forest 
environments are something we ought to get about the business 
of doing and I guess we have to kind of crawl back into it 
slowly to regain the credibility that maybe we lost with the 
American public over the issue of forest management down 
through the years.
    Hopefully that's what this Forest Landscape Restoration Act 
will allow us to do. I don't suspect that it's going to be 
sweeping if it becomes law and it probably shouldn't be, but 
maybe it's a few steps again down that path that allows the 
public to begin to understand what we all need to do 
collectively and that we really do need to allow our 
professionals to manage instead of to tie them up in court and 
keep them preoccupied with the legal process simply because 
some group just totally disagrees and has the power of the 
court to stop.
    While we will do nothing in this bill about that particular 
situation, Senator Lincoln, hopefully we put it all together 
and over another decade or two, we'll by then have burned 
probably another 25 or 30 million acres. We will be able to get 
back to the business of reasonable management.
    Now I don't mean to sound cynical, it's just simply a 
reality of where we are and what's going on out there, and last 
year, a tremendously difficult year fire-wise, billions of 
dollars spent and properties lost beyond control, beyond 
amazement, and lives lost, brave fire fighters always out on 
the edge of risk.
    So, it's a struggle we deal with. You've all been here a 
long while offering your expertise and we need it as we 
collectively put together policy that hopefully moves us in the 
right direction to sustain this phenomenally valuable asset 
that we have as our Nation's forested lands and what it does 
for us.
    Thank you.
    Senator Lincoln. Thank you, Senator Craig. Did you have any 
questions? I have a few more.
    Senator Craig. I do, and I'll ask staff after a lot of 
questions have been asked, some of them may have been answered. 
If not, I'll submit them for response.
    Senator Lincoln. Great. All right.
    Senator Craig. Thank you, all.
    Senator Lincoln. Thank you, Senator Craig. I just had a 
couple of quick questions I kind of wanted to get to and see if 
we couldn't throw them around.
    I think it's been suggested both in your testimony here 
today and others that instead of having two technical advisory 
panels focused on specific aspects of the proposal, we should 
have one advisory panel to consider proposals in their 
entirety.
    Any of you all have comment on that that you'd like to take 
further or express anything on?
    Mr. Gross. I did address that in my comments, and, you 
know, the required scientific advisory panel has more of the 
forest scientists on it, ecologists, and that's an important 
part of evaluating the projects proposed.
    The technical advisory panel is stated as being optional in 
the bill, but I think the expertise that would be represented 
on that panel is also important in evaluating whether or not 
proposals under this bill truly take that comprehensive 
approach and have long-term business benefits and benefit the 
communities, too.
    So, you really need that wide range of expertise----
    Senator Lincoln. But you'd still combine them?
    Mr. Gross. If you combine them, I think you'd get that.
    Senator Lincoln. Also, I think Mr. Lawrence and Mr. Gross, 
you both expressed concern about the bill's requirement that a 
collaborative group have an established record of success in 
planning and implementing forest restoration projects, and I 
think Mr. Simon, on the other hand, mentioned that provision as 
an important enabling condition or an indicator of success.
    Maybe if the three of you all expand on those thoughts just 
a little bit?
    Mr. Gross. Sure. OK. The way the language is written now, 
it requires that a collaborative proposing a project have an 
established track record and my point was that there are a lot 
of entities out there, organizations, businesses that have 
worked in collaboration but maybe haven't worked together in 
the specific collaborative that would be making a proposal 
under this bill and I don't want to see them penalized or 
excluded.
    So, if the evaluation or the selection criteria would look 
at the broad collaborative expertise that the partners have, 
maybe not necessarily in working together, you know, partner A 
and partner B have worked on this project and have proven they 
can collaborate and be successful and partner C and D have 
worked on another one and proven they can be successful, allow 
them to come together as a new collaborative and don't penalize 
them for that in this bill, so that this bill can encourage new 
collaboration.
    Senator Lincoln. OK. Mr. Lawrence.
    Mr. Lawrence. Senator, it's NRDC's view that this is a 
provision that could create--could turn into a friction point 
that could create some controversy and some dispute among 
various groups and processes that are competing for scarce 
dollars here.
    It's not hard to show that you have successfully 
collaborated on something and it's not terribly hard to show 
that you have, say, removed X number of miles of road or 
improved stream conditions by putting in X number or Y number 
of in-stream structures or created a forest structure that you 
started out to create by going out and measuring that.
    But forest restoration, as I suggested in my testimony, is 
a tricky and experimental process and it's not something that 
you can measure in one snapshot in time. You may undertake a 
restoration project and get good results the first year after 
you did it but bad results 10 years later or vice versa and for 
that reason, I think that it's a little bit of an illusion to--
and maybe just sets the bar too high to suggest that 
collaboratives come in and show that they've got a successful 
track record at restoration.
    I think these groups ought to be evaluated on their ability 
to work together, on how good their plan is, whether they have 
addressed, you know, in hard-nosed fashion the requirements of 
having a business plan and so forth, but I think that it's 
probably not helpful and probably ultimately sends people off 
in a fruitless effort to show that they have actually 
successfully restored forests.
    That's something that I think we have to judge years from 
now and not at the outset of the process.
    Senator Lincoln. Scott.
    Mr. Simon. Yes, Senator. The Nature Conservancy, based on 
what we've seen in Arkansas and other places around the 
country, just feel that collaboration and both experience were 
key factors in successful projects.
    So, in some way, shape or form, in the proposed 
legislation, having that be part of it would satisfy our 
interests which could be done in many ways, and since it's a 
competitive process, the best proposals would win, would come 
forward.
    Senator Lincoln. Right off the top. Just a couple last 
things.
    Mr. West, I think you mentioned the ability to use the fuel 
or whatever's left on the forest floor. I know the last several 
years in the budget that has been sent to us and that ends up 
coming out, lot of times the Forest Service is requesting 
resources that doesn't even meet half the need of what their 
management plan actually is, and I know that we've had 
difficulty because we get our mouths washed out with soap up 
here if we use the word ``earmark'' or we ask for anything 
special and yet we hear from our, you know, Forest Service 
industries, our forests, our national forest folks and others 
that, you know, there's a lot more that could be done there 
that's not only productive for the economy but also productive 
for the Forest Service because the money that comes back as 
well as productive for the sustainability of the forests.
    So, I hope that we can continue to work on that. It is 
definitely a place to make an investment, and I for one kind of 
keep bugging them over there and they know me when I call.
    But your testimony mentioned that we need to restore our 
forests to more sustainable and resilient conditions, not only 
in the context of wildfires but also in the context of climate 
change, and certainly Senator Craig brought up the issue of 
climate change.
    My view is that the best climate change strategy in the 
context of forest management is also to manage a healthy 
ecosystem. I mean, clearly, you know, the overall ecosystem is 
critically important to the forests and the forests to the 
system, and I think the bill reflects that.
    We would certainly want your comments on that, what you 
think, and do you think the bill's on the right track from a 
climate change perspective, and would love to hear from the 
rest of you all on that as well.
    Mr. West. We think it is, Senator, and I think to some of 
the other questions, too, I think we need to focus on the 
priority landscapes. That's where our first effort needs to 
look at. Where are the areas that need the most immediate work, 
triage-wise, and, second, do we have the resources in terms of 
people and collaborative efforts to do that?
    I don't want to see us get bogged down in going and 
creating collaborative groups to create that and not focus on 
what we really need to do.
    In terms of climate, just last week at our annual meeting, 
which was held outside of Portland, Oregon, we had one of the 
Nation's top bioclimatologists, and what that is, I believe, a 
person that studies the reaction or the relationship between 
the biota and climate, and he talked about using all the 
different projections of climate change from the range of a lot 
of temperature change into a moderate temperature change with 
different rainfalls and all those sorts of things.
    His bottom line conclusion is that if we're going to have 
resilient forest ecosystems in the western part of the United 
States to deal with this unknown change that we're going to 
get, we need to make sure that the leaf area and needle area of 
our forests is related to the amount of moisture that we're 
going to have in those areas and what that tells me, for most 
of the inner West and parts of the South, is that we're going 
to have to reduce that leaf area and needle area to survive, to 
have forests that survive.
    Part of that is going to be doing the things that this bill 
talks about, reducing as was done in Arkansas, reducing those 
thickets and getting it to a sustainable level, and when we do 
that, we can be putting carbon into long-term storage in terms 
of building products. We can be using some of this material 
into a renewable energy source that has a very low carbon 
signature and can offset those other energy sources that we're 
digging up from under the ground.
    Senator Lincoln. That's great. We hope so. It is kind of 
the unknown until we start taking some action up here.
    Anybody else want to comment on the climate change?
    Mr. Gross. Sure. The Forest Guild has put quite a bit of 
time in the last year into educating ourselves and our members 
about the role of forests in sequestering carbon and also what 
we should be thinking about in the management of our forests, 
so as Chris is getting at, so we have forests 50 years, 100 
years from now that reflect the climate.
    I have a copy of that report I'd like to leave with you 
here.
    Senator Lincoln. Sure.
    Mr. Gross. OK. I think, you know, if the bill is successful 
in achieving the goals it sets out, achieving its purpose, then 
obviously we're going to have forests that are restored to a 
condition where they will persist, so that's carbon that's not 
released into the atmosphere, so that's positive for climate 
change, and continuing to have forests that can sequester 
carbon into the future is critically important.
    There's a lot of other pieces of the puzzle out there, you 
know, regarding preventing forestland from being converted to 
non-forest use because we lose that carbon sequestration 
potential.
    So, it's a complicated issue and I'd love to see the Senate 
and House really take it on.
    Senator Lincoln. Hopefully this bill will help us in terms 
of the overall climate change issue as we move forward.
    Any other comments from the panel?
    Mr. Lawrence. Just briefly. Sooner or later, I'll get this 
button.
    You know, you're absolutely right that climate change is 
the X factor. You know, as much as we have to learn about 
forest restoration in general, we have vastly more to learn 
about climate change in terms of the scale of climate change, 
the pace at which it's going to take place, the impacts that 
it's going to bring, and we don't even know, you know, for much 
of the West whether we're going to get warmer forests or wetter 
forests as a result of climate change.
    Certainly in terms of how to respond to and hedge against 
climate change, there's a huge amount that we really don't 
know. I think the best scientific thinking that I have seen on 
the subject suggests two things that are worth bearing in mind 
in the context of this bill.
    The first is that forests that are more resilient will 
probably fare better as the climate changes. So that to the 
extent we can do it, that rolling back management problems, 
management abuses and creating forests that better accommodate 
natural disturbances, including fire, is a smart thing to do.
    The second is that if we have parts of the landscape that 
will help us hedge against climate change, those are the large 
undisturbed areas that we still have remaining principally in 
the West. Those are the places which are best able to serve as 
bank accounts for species and for ecological processes to 
safeguard them and accommodate climate change over time where 
there's little loss of kind of key components as we can hope 
for.
    Senator Lincoln. From all the indications we seem to be 
getting, particularly most recently, I suppose, it seems as if 
the repercussions of climate change are coming closer and 
closer to us as opposed to the 20 or 30 years we thought we had 
before we start seeing some real effects, whether it's the 
melting of the caps or the glaciers and everything else.
    So, it seems to be speeding up and certainly these are the 
types of initiatives, I think, and programs that we need to get 
started that are going to help us curb some of that. So, we 
look forward to working with you.
    Are there any other comments from the panel?
    [No response.]
    Senator Lincoln. We appreciate again your expertise. We 
look forward to working with you. My hope is that we will move 
forward on something and as we do, we'll certainly need your 
input on that.
    As I said, growing up walking through the St. Francis 
National Forest, one of the things--I was with the Forest 
Service when I did, and my dad was with me, and we left and I 
looked at him and I said, ``Did they leave anything out?'' and 
he said, ``Well, the only thing they left out was this was 
pastureland about a hundred years ago.'' He said, ``You know, 
forests are to be managed and that's the way that you keep them 
healthy and that's the way that you keep them going.'' He said, 
``Pioneers came through here and cut them down and used them 
for pastureland and then we all decided it was important to 
have them back in forestland and we managed it properly and 
we've got an unbelievable hardwood forest now back again and we 
can continue that, but it has to be managed.''
    So, we'll look forward to working with you and again for 
your expertise in moving forward, making sure we get it right 
because it is definitely an integral part of the bigger picture 
of what we want to see happening, too, and I will remind you 
that, as Senator Craig and other members may have questions, 
we'd love to ask you to be prepared to answer any of those 
questions they may submit.
    Thank you again for your time and interest. The committee's 
adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]

    [The following statement was received for the record.]

        Montana Logging Association, Montana Wood Products 
 Association, Intermountain Forest Association, Associated 
                                       Logging Contractors.
                                                     April 4, 2008.
Hon. Jeff Bingaman and Pete Domenici,
304 Dirksen Senate Office Building, Washington, DC.
Re: Federal Landscape Restoration Act (S. 2593)

    Dear Senators Bingaman and Domenici: We are writing on behalf of 
the Montana Logging Association, the Montana Wood Products Association, 
the Intermountain Forest Association and the Associated Logging 
Contractors of Idaho, representing more than 1000 independent logging 
contractors and professional forest practitioners. Our collective 
members represent loggers, wood product manufacturers, biomass energy 
producers/users and forest landowners that are committed to both the 
ecological and economic viability of our region's forest communities. 
Therefore, we appreciate this opportunity to offer our collective 
comments on the above referenced legislation.
    First, we would like to applaud your efforts. As you know, there 
are millions of acres of Forest System Lands that are need of landscape 
scale restoration efforts. The goals of the Federal Landscape 
Restoration Act--even though ambitious--reflect an appropriate approach 
to forest restoration. To that end, we would like to offer the 
following comments:

    In order for restoration activities to be successful, adequate 
funds must be appropriated in addition to the current national timber 
program capacity levels.

  <bullet> An assessment of the Agency's current capabilities to 
        implement such a program must be analyzed. It would be 
        inconsistent to require the establishment of programs that 
        require a certain level of capability, capacity and utilization 
        if those critical components are absent or marginal.
  <bullet> While we understand the focus on wildland fire mitigation, 
        we also note that the emphasis on restoration of fire-drive 
        ecosystems largely preclude other important restoration 
        projects from consideration. Insect and disease infestations, 
        weed and species encroachment, soil disturbance, age-class 
        distribution all play an important role in restoring an 
        ecosystem. Also, ignoring larger tree removal will not achieve 
        restoration and will only drive up the cost of implementation. 
        Therefore, we urge the expansion of the selection criteria to 
        include these concerns.
  <bullet> Restoration efforts should require monitoring with an 
        emphasis on adaptive management as a result of monitoring.
  <bullet> A risk assessment should be completed by the Agency and site 
        selection criteria should compliment data found in current 
        Forest Inventory Analysis or other fine spatial data.
  <bullet> Also, we strongly recommend inclusion of pre-decisional 
        appeals and expedited judicial review language, as provided in 
        the Healthy Forest Restoration Act of 2003 (HFRA) Sections 105 
        and 106.
  <bullet> Since this bill promotes restoration activities with an 
        emphasis on biomass and small diameter tree removal, the 
        economies needed to achieve this goal will require a broader 
        landscape scale approach. As many of the pilot projects and/or 
        future landscape scale restoration activities may use the 
        Stewardship Contracting toll for implementation, we recommend 
        giving permanent authority tot he Stewardship Contracting tool 
        that is currently due to sunset on September 30, 2013. 
        Legislating permanent authority offers land managers and 
        contractors necessary assurances that restoration activities 
        will be sustainable. In addition, more emphasis must be given 
        to utilizing current local workforce and infrastructure.

    Again, we commend your efforts and appreciate this opportunity to 
provide comment, and look forward to working with you as this bill 
progresses through congress.
            Sincerely,
                           Keith Olson, Executive Director,
                                       Montana Logging Association,
                                      Jim Riley, President,
                                  Intermountain Forest Association,
                    Ellen Simpson, Executive Vice Pesident,
                                 Montana Wood Products Association,
                          Shawn Keough, Executive Director,
                               Assoc. Logging Contractors of Idaho.
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

      Responses of Scott Simon to Questions From Senator Domenici
    Mr. Simon you mention 300,000 acres of oak dieback. I know there 
have been other major examples of forests being killed and damaged by 
weather events, but also insects and disease.
    I know some in the public get nervous when the Forest Service 
proposes large-scale salvage projects when these events occur.
    Question 1. Are you comfortable that the authorities proposed in 
this bill can be carried out quickly enough to address these 
catastrophes before the damaged forest products lose too much value?
    Answer. The dead trees on the 300,000 acres in Arkansas affected by 
the oak-dieback were not salvageable so the issue did not come up. 
Categorical exclusions were used on a couple of restoration units on 
the Ozark National Forest's Pleasant Hill Ranger District that had not 
gone through NEPA previously. The decision was faster but not 
necessarily better.
    Our experience in Arkansas is that projects are held up when there 
is a lack of trust and that collaboration builds the trust needed to 
expedite project implementation. The authorities in this bill will be 
sufficient to get ahead of catastrophes if the collaboration is as 
strong as the bill requires.
    Question 2. Might there be additional process-streamlining that we 
should consider in order to improve the ability of this legislation to 
help restore our federal forests?
    Answer. The Nature Conservancy's experience is that process-
streamlining is typically not needed when there is strong collaboration 
and the best available science is used to design projects. We believe 
that the eligibility requirements for the Forest Landscape Restoration 
Act will screen out controversial projects that might get tangled up in 
process requirements, and that additional process streamlining should 
not be needed to implement this Bill.
    Question 3. You've heard Mr. West express his concerns about the 
pending termination of the stewardship contracting authority and the 
need to address the Forest Service's stewardship contracting liability 
issue.
    Do you hold those views and would The Nature Conservancy support 
attempting to address both of these issues in this legislation?
    Answer. The Nature Conservancy shares Mr. West concerns on the 
termination of the stewardship contracting authority and the need to 
address the USFS stewardship contracting liability.
    The Forest Service's written testimony on FLRA described their best 
example of a stewardship contract to date, the 150,000 acre White 
Mountain Stewardship Project. The stewardship contracting authority 
created a tool to address forest health needs over landscapes of this 
scale--the scale necessary to make significant progress in addressing 
national forest health needs. We note that Region 3 was only able to 
fund that one large stewardship contract and that none of the other 
stewardship contracts nationally have exceeded 40,000 acres. It is our 
understanding that the need for the Forest Service to set aside funds 
for contingent liability is a significant barrier to large scale 
stewardship contracts. We therefore see that it is possible that loss 
of the stewardship contracting authority and the contingent liability 
for stewardship contracts could limit the Forest Service's ability to 
fully implement the Forest Landscape Restoration Act.
    While The Nature Conservancy believes that these issues need to be 
addressed, we are not confident that the Forest Landscape Restoration 
Act is the best vehicle to address them. It is not clear that federal 
legislation is needed to address the contingent liability problem, 
versus modifying the Forest Service's policies for the Federal 
Acquisition Regulations, or whether simply reauthorizing the 
stewardship contracting authority as a sidebar to passage of the Forest 
Landscape Restoration Act will encourage discussion on how to improve 
the mechanism and make it a more viable tool for restoring forest 
health.
                                 ______
                                 
      Responses of Gail Kimbell to Questions From Senator Domenici
    Chief Kimbell, one of the witnesses on the next panel is going to 
address the government liability issue regarding stewardship contract 
cancellations and the funding of these cancellations. We are hearing 
that some Regional Foresters and Forest Supervisors are leery of 10 
year stewardship contracts because of the current contract cancellation 
liabilities.
    Question 1. Do you think that the current system for satisfying the 
cancellation of multiyear stewardship contracting is reducing the 
field's willingness to utilize this contracting authority?
    Answer. Stewardship contracting fosters federal contributions to 
the development of sustainable rural communities, maintenance of 
healthy forest ecosystems, and continuing sources of local income and 
employment. The Forest Service is exploring ways to foster greater use 
of stewardship contracting in a manner that also protect taxpayers from 
exposure to unfunded contingent liabilities. Currently, a National 
Forest seeking to conduct a stewardship contract must fund cancellation 
requirements within its base allocation. This creates competition with 
other land management activities on that National Forest that also 
require funding.
    Question 2. Considering the limitations of the biomass definition 
found in the Energy Independence and Security Act of 2007; what impacts 
will this have on your agency's ability to do large scale forest 
restoration?
    Answer. Renewable fuel produced from biomass removed from National 
Forest System (NFS) lands generally may not be counted towards meeting 
the Renewable Fuel Standards (RFS) because of the limitation in the 
definition of ``renewable biomass'' in EISA.
    Question 3. If the agency were to have the maximum number of 
contracts under this authority all be 10-year contracts, and using the 
stewardship contract currently being implemented on the Apache-
Sitgreaves National Forest as a guide:

    How much funding might the agency have to withhold to cover its 
contract liability costs for these new contracts?
    Answer. Every contract is unique. The liability cost depends on the 
terms of the contract, including any amount of capital investment 
needed to do the work that may be included in the cost of the contract. 
There could potentially be from two to six new contracts that may or 
may not have contract liability requirements.
    Question 4. Given the requirements for collaboration in this bill, 
what other existing authorities, other than stewardship contracting, 
does the Forest Service have that would optimize the authorities this 
bill provides?
    Answer. As stated in our testimony, we believe that the actions we 
are currently taking will be enhanced by various provisions of S. 2593, 
particularly if combined with the provisions of our FY 2009 ecosystem 
services demonstration projects legislative proposal. The legislative 
proposal will engage partners in forest restoration that restores, 
enhances, and protects multiple ecosystem service benefits.
    Use of the streamlined NEPA procedures in the Healthy Forest 
Restoration Act of 2003, the collaborative opportunities in the Tribal 
Forest Protection Act; as well as Public Law 106-291, section 331 and 
Public Law 108-447, section 337, which respectively authorize the 
Forest Service to enter into contracts to perform watershed restoration 
and protection services on National Forest System lands in the States 
of Colorado and Utah, could also be used to optimize the authorities in 
the bill.
    In carrying out projects using stewardship contracting authorities, 
the agency has used the hazardous fuel reduction categorical exclusion 
(HRFCE). That categorical exclusion could have been used to carry out 
ecological restoration treatment under the bill. However, on December 
5, 2007, the Ninth Circuit Court of Appeals declared the HRFCE invalid 
based on the record before the court. The Circuit indicated that it 
would order the district court to: (1) issue a nationwide injunction 
against further use of the HFRCE, and (2) determine which activities 
approved after October 8, 2004, under the HFRCE should be enjoined. On 
March 24, 2008, the government petitioned the panel to revise its 
opinion to clarify the scope of the injunction that the district court 
is authorized to grant; that petition is pending before the court. 
While the Circuit's order did not immediately enjoin use of the HFRCE, 
the Chief of the Forest Service has issued instructions limiting use of 
the category while the agency pursues reconsideration of the scope of 
the injunction.
    Question 5. What impacts will this stewardship contract liability 
issue have on the ability of this legislation to carry out its purpose?
    Answer. Please refer to the response to Question 1.
    Question 6. What would you recommend be done to address this 
problem?
    Answer. We have no specific recommendations at this time, but would 
be willing to work with you on a more in depth review of the situation.
                                 ______
                                 
      Responses of Howard Gross to Questions From Senator Domenici
    Mr. Gross, I can understand your reasoning for encouraging a more 
open and competitive nomination process for these restoration projects. 
However, as I said in my opening statement I do have some concerns with 
some of the intent of this bill being lost to process.
    Question 1. Is there a way for your suggestion to include more 
stakeholders and project proposals to be incorporated in the 
legislation while still maintaining a streamlined nomination process?
    Answer. I appreciate the interest in keeping the process created by 
this bill to a minimum so that the maximum amount of the funding can go 
into on-the-ground restoration work. I feel that including language in 
S. 2593 to ensure an open and competitive process at the regional level 
will result in a stronger suite of proposals nationally because such a 
process will stimulate innovative thinking and collaborative 
discussions, and help ensure that selecting regional proposals benefits 
from diverse viewpoints and ideas in addition to those within the 
agencies.
    Furthermore, the process by which proposals are solicited, 
reviewed, and selected can be an important part of the learning that 
goes on at the regional level among diverse stakeholders. While an open 
and competitive process might take a bit longer at the outset of the 
program--as all programs require start-up time and encounter growing 
pains--it can lead to greater discussion and innovation among 
stakeholders regarding restoration projects, which results in greater 
capacity within the participating communities and, over time, greater 
effectiveness in developing and reviewing strong projects, as 
stakeholders come to understand and support the process.
    Perhaps one way to have a more streamlined process at the regional 
level, instead of using a Collaborative Forest Restoration Program-like 
selection process, would be to use a process akin to a pre-proposal 
process that is more conceptual in nature but still ensures all 
interested stakeholders have an opportunity to interact with the 
agencies regarding potential projects. A limited number of selected 
pre-proposals could then be developed into full-blown proposals 
submitted by the Regional Forester to the Secretary.
    Also related to ensuring that the program foster an open process 
(and is broadly supported and successful in leveraging additional 
resources), it is important that the Regional Forester seek stakeholder 
input and reach consensus of establishment of priority landscapes. This 
process need not be burdensome or resource intensive. Also related to 
streamlining the process, combining the Scientific and Technical 
advisory panels into one National Advisory Panel that includes diverse 
representation would be more efficient than keeping them as two 
separate panels.
    Question 2a. Could you elaborate on your recommendation to clarify 
the use of funding for monitoring? While monitoring will certainly be 
an important part of these restoration projects, I do not want 
monitoring to consume too much funding and therefore detract from the 
implementation of these projects?
    Answer. As in my answer above, I appreciate the interest in 
maximizing the funding that goes into on-the-ground restoration work. 
However, I think that funding from the Collaborative Forest Landscape 
Restoration Fund should not only be permitted to be used for monitoring 
but that having a monitoring component should be a required eligibility 
criterion of proposed projects. Monitoring is important not only from 
the standpoint of ensuring that the work committed to was actually 
performed, it is also needed to assess project effectiveness and 
understand if the work performed actually achieve project goals.
    I believe that we all acknowledge and truly appreciate that the 
landscape-scale restoration program this legislation would establish is 
cutting-edge and the projects it would fund would be innovative and 
require a certain degree of experimentation. As such, long-term 
effectiveness of funding spent for projects under this program and 
similar ones in the future will be enhanced by ensuring that the 
results of projects enabled by S. 2593 are monitored and the data 
collected are made public and used for adaptive management.
    Question 2b. Mr. Gross, are you at all concerned with the 
definition of biomass found in the renewable fuels section of the 
energy bill we just passed last year?
    Answer. Yes. The definition excludes woody biomass derived from 
federal lands as a feedstock from the Renewable Fuels Standard (RFS). 
This exclusion could restrict options for and thus the ability of 
collaborative efforts in rural communities surrounded by federal 
forests to engage in ecological management activities.
    Question 3. If this definition, as some believe, will restrict 
forest restoration opportunities on federal land; how might the 
potential effectiveness of this law be impaired?
    Answer. The definition limits the biomass utilization options 
collaborative groups can use to support forest restoration on public 
lands. The success of S. 2593, if passed into law, centers on the 
ability of collaborative efforts within rural communities to build 
capacity around forest restoration and stewardship. Excluding woody 
biomass derived from federal lands from the Renewable Fuels Standard 
could limit the growth potential of community-scaled forestry 
enterprises and undermine the investments some forestry enterprises 
have already made. Producing feedstock for renewable fuels may not be a 
viable option for all collaborative groups that could benefit from S. 
2593. However, for those collaborative groups where it is viable, the 
restriction could be a barrier to success.
                                 ______
                                 
  Responses of Christopher I. West to Questions From Senator Domenici
    Question 1. Mr. West, we continue to lose mill infrastructure in 
the West--this reduces the ability to restore landscapes in a cost 
effective manner. What can be done to reverse this trend? How will this 
bill help?
    Answer. You are correct, we continue to lose mill infrastructure 
and without loggers, sawmills and cogeneration facilities, it will be 
very difficult to address the forest health crisis facing our federal 
forests. The most important solution to reversing this trend is making 
sure there is a predicable, sustainable and comprehensive supply of 
federal land management projects on which companies can operate. 
S.2593, with its proposed large scale projects, would supply a 
predictable and sustainable level of work.
    Question 2. From an industry perspective, can you tell us what 
components of a landscape restoration project are necessary to ensure 
local mill infrastructure stays in business?
    Answer. Large scale projects to remove hazardous fuels and restore 
forest health can be planned in way in which receipts for merchantable 
timber can help pay for the removal of unmerchantable small diameter 
tress or biomass. These types of projects make the most of taxpayer 
dollars and allow more projects or more work to get done on the ground. 
This would also result in multiple years of work, feeding local mills, 
biomass plants and ensuring loggers and other employees in the 
communities have good family-wage jobs. The big unknown is whether the 
funding will be appropriated and/or allocated to these projects.
    Question 3. Mr. West, regarding your concerns over stewardship 
contracting; what do you believe the consequences will be if the 
stewardship contracting authority sunsets in 2013?
    Answer. Since the expiration date is just slightly over 5 years 
away, many if not all projects that would be planned and executed under 
the provisions of this Act (assuming passage this calendar year) would 
just be commencing on the ground activities. Therefore if the 
stewardship contracting authorities are not extended, most if not all 
of the landscape restoration projects would be service contracts. These 
projects would cost the federal government more per acre, waste 
valuable resources that could be used to make wood products and/or 
renewable energy and would result in decreased employment opportunities 
in rural communities.
    Question 4. Do you believe that the current procedure for 
stewardship contracting liability is satisfactory for implementing this 
legislation?
    Answer. Not at all. S.2593 must be amended to include the language 
contained in Senator Kyl's S.2442, which addresses the serious problem 
associated with the antiquated Federal Acquisition Regulations.
    Another problem exists in the private sector bonding arena, where 
surety companies tend to avoid underwriting performance bonding for 
more than seven years. At this time, we don't have a legislative 
solution to this predicament; it will have to be something that 
potential federal contractors will have to work out with their bonding 
companies.
    Question 5. What would you recommend be done to improve this 
process?
    Answer. See answer to question number 4.
    Question 6. What will be the consequences if the government 
liability and stewardship contract cancellation issues are not 
resolved?
    Answer. Fewer federal dollars would be available to plan, prepare 
and implement restoration projects and therefore fewer at-risk 
landscapes will be treated.
    Question 7. Do you have any recommendations for us to consider 
regarding what to do about the current definition of biomass in the 
Energy Independence and Security Act of 2007?
    Answer. The biomass definition inserted by the House of 
Representatives precludes all federal forests and most non-federal 
forests from the Renewable Fuel Standard (RFS). We would support 
Congress passing legislation that would amend that definition with the 
one that the Senate passed last summer in its version of the Energy 
Independence and Security Act.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]
            Questions for Henri Bisson From Senator Domenici
    Mr. Bisson, I know the BLM would like a larger role in the 
implementation of this bill and has expressed concerns about trying to 
expand its focus beyond forested federal lands.
    Question 1. Would it be possible for the Bureau of Land Management 
or even other agencies within the Department of the Interior to request 
sufficient funding for landscape restoration line items so that if 
authorized the Bureau of Land Management could play a larger part in 
federal land restoration envisioned by this bill?
    Question 2. Given your agency's concerns about expanding the scope 
of this bill to increase its focus to the grassland and sage ecotypes, 
as well as dealing with the invasive species issues those ecosystems 
suffer; are there specific modifications to this bill that your agency 
can recommend to improve it?

                                    

      

</pre></body></html>
